Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




     Institutional   Review Boards:

           A Time for Reform




                      JUNE GIBBS BROWN
                       Inspecior General

                           JUNE1998
                         OEI-01-97-00193
                        EXECUTIVE                      SUMMARY
PURPOSE
        To summarize the challenges facing institutional review boards and to make
        recommendations for Federal oversight.

BACKGROUND
Role of Institutional    Review Boards

        Institutional review boards (IRE3s) play vital roles in protecting human research subjects.
        They review initial research plans to make certain that the plans provide subjects with
        adequate opportunity to provide informed consent and do not expose subjects to
        unreasonable risks. They also conduct continuing review of approved research to ensure
        that human-subject protections remain in force. They carry out their initial and
        continuing review functions in accord with Federal regulations first established in the
         1970s and applicable to all research funded by the U.S. Department of Health and Human
        Services or carried out on products regulated by the Food and Drug Administration.

This Summary Report

        This is a synthesis report. It draws on our broad inquiry of 1-s and on findings we
        presented in three parallel reports. Its overarching conclusion is that the long-established
        system for protecting human research subjects has vulnerabilities that threaten its
        effectiveness. In the report we highlight the major elements leading to this conclusion
        and offer recommendations for improvement. The recommendations are especially
        important in view of current Federal plans to increase significantly the numbers of human
        subjects participating in clinical trials, and proposals to give IRE& increased responsibility
        in the areas of genetics and confidentiality.

        With this report, we offer a warning signal and a framework for a concerted response to
        it. We do not document, nor do we suggest that widespread harm is being done to human
        subjects. We recognize the strengths of the current system and seek to build on them to
        enhance human-subject protections.

Methodology

        Given our focus on the overall system of protections, we did not carry out audits of IRBs
        or investigations of particular cases. To help us understand the big picture, we conducted
        an extensive review of Federal records and pertinent literature; held interviews and group
        discussions with many Federal officials and with representatives of about 75 IRBs;
        visited IRE3sat 6 academic health centers where extensive clinical research is taking
        place; attended IRE3meetings; and accompanied FDA inspectors on IRB site visits.


                                                   i             OEI-Ol-97-00193   IRBS: A Time For Reform
FINDINGS
The Effectiveness of IRBs Is in Jeopardy.

       They Face Major Changes in the Research Environment.             The current framework of
       IRB practices was shaped in the 1970s in an environment where research typically was
       carried out by a single investigator working under government funding with a small
       cohort of human subjects in a university teaching hospital. In recent years, that
       environment has been changing dramatically as a result of the expansion of managed
       care, the increased commercialization of research, the proliferation of multi-site trials,
       new types of research, the increased number of research proposals, and the rise of patient
       consumerism. Each of these developments has presented major disruptions and
       challenges for IRBs. “Never before,” concluded one recent review, “has such a pressure-
       cooker atmosphere prevailed within the IRB system.”

       They Review Too Much, Too Quickly, with Too Little Expertise. This is especially
       apparent in many of the larger institutions. Expanded workloads, resource constraints,
       and extensive Federal mandates contribute to a rushed atmosphere where sufficient
       deliberation often is not possible. At the same time, the IRBs frequently are hardpressed
       to gain access to the scientific expertise they need to reach informed judgments about the
       research taking place under their jurisdiction.

       They Conduct Minimal Continuing Review of Approved Research. In the
       environment described above, continuing review often loses out. Even where there is the
       will, there often is not the time to go beyond the perfunctory obligations. A lack of
       feedback from other entities that oversee multi-site trials contributes to the problem. The
       result is that IRBs have all too little information about how the informed consent process
       really works and about how well the interests of subjects are being protected during the
       course of research.

       They Face Conflicts That Threaten Their Independence. Clinical research provides
       revenue and prestige to the institutions to which many IRBs belong. The institutions
       expect IRBs to support these interests at the same time that they protect human subjects.
       The resulting tension can lessen the IRBs’ focus on their basic mission. The minimal
       “outside” representation that typically exists on IRBs deprives them of an important
       counterbalance to the institutional interests. For independent IRBs, the dependence on
       revenue from industry sponsors exerts similar possibilities for conflict.

       They Provide Little Training for Investigators and Board Members. The RI3 system
       depends heavily on research investigators’ commitment to uphold human-subject
       protections. But as that system now operates, it offers little educational outreach to
       investigators to help them become informed and sensitized about these protections.
       Similarly, it provides minimal orientation and continuing education for IRB members--a
 -w    deficiency that is especially detrimental to nonscientific and noninstitutional members.



                                                ii            OEI-Ol-97-00193   IRBS: A Time For Reform
       Neither IRBs Nor HHS Devote Much Attention to Evaluating IRB Effectiveness. 

       IRBs rarely conduct inquiries to determine how well they are accomplishing their 

       mission; their judgments of effectiveness rely mainly on the number of protection lapses 

       or complaints that are brought to their attention. The HHS agencies conducting oversight 

       seldom go any further. The Offrce for Protection from Research Risks, in the National     1

       Institutes of Health, focuses almost entirely on upfront assurances. The Food and Drug 

       Administration relies on compliance-focused inspections. 



RECOMMENDATIONS
       With the above findings, we do not claim that there are widespread abuses of human
       research subjects. The current system of protections is supported by many conscientious
       research investigators committed to protecting human subjects and by many dedicated
       IRB members and staff doing their best under trying circumstances. A reviewer of this
       system can not help but be impressed by the contributions of these individuals, and the
       important function that IRBs have fulfilled over the past quarter of a century.

       But our findings present an important warning signal. The capacity of IRBs to
       accomplish all that is expected of them is strained. In the years ahead, this difficult
       situation could become even worse in view of Federal plans to increase significantly the
       numbers of subjects in clinical trials and various proposals to give IRBs added
       responsibility in the areas of genetics and confidentiality. It is time, we believe, for
       reform.

      Our recommendations offer a framework for such a response. We direct them jointly to
      the two HHS agencies responsible for IRB oversight: the Office of Protection from
      Research Risks (OPRR), which is located within the National Institutes of Health (NIH),
      and the Food and Drug Administration (FDA). These agencies oversee IRBs with
      different jurisdictions and operational approaches. It is essential, therefore, for them to
      collaborate closely if HHS as a whole is to respond effectively to the serious concerns
      that emerge from our inquiry. Below we present our general recommendations for the
      two agencies. In the text, we offer more explicit elaborations directed, as appropriate, to
      the particular agencies.

Recast Federal IRB Requirements So That They Grant IRBs Greater Flexibility                and Hold
Them More Accountable for Results.

       t Eliminate or lessen some of the procedural requirements directed to IRBs.

       t Require that IRBs undergo regular performance-focused evaluations.

Strengthen Continuing   Protections   for Human Subjects-Participating         in Research.

       b Require Data Safety Monitoring   Boards for some multi-site trials.


                                               ... 

                                               111            OEI-Ol-9740193    IRBS: A Time For Reform 

       b Provide IRESswith feedback on developments concerning multi-site trials.

       b Routinely provide IRE&swith feedback about FDA actions against investigators.

       b Require sponsors and investigators to notify IRBs of prior reviews of research plans.

       b Call for increased IRE3 awareness of on-site research practices.

Enact Federal Requirements That Help Ensure That Investigators and IRB Members Are
Adequately Educated About and Sensitized to Human-Subject Protections.

       b Require that research institutions have a program for educating its investigators on
         human-subject protections.

       . 	Require that investigators provide a written attestation of their familiarity with and
          commitment to human-subject protections.

       b Require that IRBs have an educational program for board members.

Help Insulate IRBs from Conflicts That Can Compromise           Their Mission in Protecting
Human Subjects.

       b Require more representation on Irks of nonscientific and noninstitutional       members.

       b Reinforce to IRE3 institutions the importance of IRBs having sufficient independence.

       b Prohibit IRE! equity owners from participating in the IRE3review process.

Recognize the Seriousness of the Workload       Pressures That Many IRBs Face and Take
Actions That Aim to Moderate Them.

       b Require that IREJshave access to adequate resources.

Reengineer the Federal Oversight Process.

       b Revamp the NIWOPRR        assurance process.

       b Revamp the FDA on-site inspection process.

       t Require the registration of 1-s.




                                                 iv            031-01-97-00193   IRRS: A Time For Reform
COMMENTS ON THE DRAFT REPORTS
       Within the Department of Health and Human Services (HHS), we received comments on
       our four draft reports from the National Institutes of Health (NIH), the Food and Drug
       Administration (FDA), and jointly from the Assistant Secretary for Planning and
       Evaluation (ASPE) and the Assistant Secretary for Health (ASH). We also solicited and
       received comments from the following external organizations: the Applied Research
       Ethics National Association (ARENA), the American Association of Medical Colleges
       (AAMC), the Consortium of Independent Review Boards (CIRB), and Public Citizen’s
       Health Research Group. We include the detailed text of their comments and our
       responses to them in appendix D. Below we summarize the major thrust of both their
       comments and our responses. We made a number of changes in the final reports. Most
       were technical in nature. Their comments sought to clarify certain findings and a few
       involved clarifications and elaborations concerning the recommendations.

NIH, FDA, and ASPE/ASH       Comments

       The HHS parties viewed the reports as raising important issues and recommendations
       warranting widespread discussion. They suggested various ways this could be
       accomplished. The NIH expressed particular support for our recommendation calling for
       the assurance process to be revamped so that it rests essentially on an institutional
       attestation to conform to IRB requirements and thereby enables OPRR to focus more on
       performance assessment and education. The FDA expressed reservations about
       refocusing its compliance-oriented inspection process, which it regards as having “great
       value,” to one that is more performance-oriented. The FDA also raised concerns about
       the resource implications of some of our recommendations.

        We will support efforts to engage broadly-based dialogue on our findings and
       recommendations. At the same time, we underscore the importance ofpractical near-
       term actions that can be taken to address the vulnerabilities we point out. We
       particularly urge that FDA and NIH incorporate into their oversight spectfic lines of
       inquiry to determine how well IRBs are actually protecting human subjects. This would
       call for examining such matters as how the processes of recruiting, selecting, and gaining
       informed consent@om human subj*ects actually work. It would also call for addressing
       vertftcation efforts to make sure that protocols are in fact submittedfor review and that
       approvedprotocols do not stray offcourse. On the matter of resources, we agree that this
       is an important issue warranting serious attention in the research andpolicy
       communities, particularly in view of added responsibilities IRBs may well face in the
       years ahead.

External Organizations’   Comments

       While the external parties supported many of our findings and recommendations, they
       also raised some strong concerns. Basically, these involved differences of substance and
       objections to the use of certain terms and language. In regard to the former, Public


                                                V            OEI-Ol-97-00193   IRBS: A Time For Reform
Citizen, in expressing considerable alarm over our findings, felt that we should have gone
further with our investigations and recommendations. On the other hand, ARENA and
AAMC had reservations about our call for performance-focused evaluations and for more
outside representation on IRBs. They were also concerned that a more active IRB role in
conducting continuing review could undermine the trust that has existed between IRBs
and the research community. With respect to the language we used, ARENA, AAMC,
and CIRE3 called for a more precise use of a number of terms. The ARENA indicated that
our use of the term “IRE3 oversight” was particularly misleading. The ARENA and
AAMC both indicated that some of our wording was unduly alarmist and more
encompassing than our methodology warranted.

 To facilitate a serious examination of the matters of substance we raise, we changed
 some of the language we used in the draft reports. Most notably, instead of referring to
  “IRB oversight, ” we focused on IRB responsibilities and authorities to conduct
  “continuing review, ” as spectfied in Federal regulations. But, this and various other
 such textual modifications we made in no way lessen our assessment that the effectiveness
 of the IRB system is in jeopardy. Our wide ranging and in-depth inquiry offers us ample
 basis to sound that warning. With respect to concerns raised that focus more strictly on
 matters of substance, we must underscore that if IRBs are to meet the significant
 challenges they face in the years ahead they must become more fully accountable to the
public. Trust in the investigators performing research is vitally important, but in itself is
 insuf$cient. The IRBs and Federal oversight agencies mustfind more effective and open
 ways of verifying that the consumer protection mission of IRBs is in fact being
 accomplished. This is especially important as the research environment in which IRBs
function becomes increasingly commercialized.




                                          vi            OEI-Ol-9740193   IRRS: A Time For Reform
                                                                                                                                             PAGE
EXECUTIVE           SUMMARY

INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l

IRBs:THEBASICS............................................................3

FINDINGS: The Effectiveness of IRBs is in Jeopardy

          They Face Major Changes in the Research Environment ........................                                                              .4
          They Review Too Much, Too Quickly, with Too Little Expertise .................                                                            .5
          They Conduct Minimal Continuing Review of Approved Research ................                                                              .6
          They Face Conflicts that Threaten Their Independence .........................                                                            .7
          They Provide Little Training for Investigators and Board Members .................                                                          8
          Neither They Nor HHS Devote Much Emphasis to Evaluating Effectiveness .........                                                             8

RECOMMENDATIONS.......................................................lO

COMMENTS            ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22

APPENDICES

          A: Advertising to Recruit Human Subjects .................................                                                              A-l

          B: Federal Requirements on IRB Continuing Review ..........................                                                             B-l

          C: Federal Oversight of IRBs .............................................                                                              C-l

          D: Comments on the Draft Reports .......................................                                                                D-l

          E:Endnotes         ........................................................                                                         ..E- 1




                                                                                              OEI-Ol-97-00193         IRBS: A Time For Reform
                          INTRODUCTION

PURPOSE
      To summarize the challenges facing institutional review boards and to make
      recommendations for Federal oversight.


BACKGROUND
      On page three we offer a primer on IRBs: why they were established, what roles they
      perform, how they are organized, where they are located, and how they are overseen by
      the Department of Health and Human Services.

Prior Inquiries
      For about a quarter of a century, IRELshave been playing an important role in protecting
      human subjects enrolled in research projects. Almost from the start, however, prominent
      studies have drawn attention to some of their limitations. A 1983 Presidential
      commission report raised concerns about the adequacy of the review procedures of some
      Irks, about how well some of the members of these boards understood their roles, and
      about the commitment of some of the institutions to their 1RBs.r Twelve years later, in
      1995, a Presidential advisory committee raised even stronger concerns about the
      adequacy of the IRB review process, especially for research involving greater than
      minimal risks, and about the effectiveness of Federal oversight strategies.* In the
      following year, the General Accounting Office issued a report reinforcing these points
      and identifying numerous factors inhibiting IRB performance.3

      In a recent inquiry of our own, we raised concerns about the continuing review effort of
      Irks. In examining clinical trials involving four investigational medical devices, we
      discovered inadequacies related to IRB oversight in each case. These inadequacies
      concerned serious matters such as the implantation of a device in three times the number
      of human subjects specified in the IRB-approved research protocol, the initiation of a
      research effort without the changes called for in the informed consent document, and the
      continuation of a research project for six weeks beyond when the IRB had suspended it.4

      The concerns about human-subject protections become even more significant in view of
      current developments. These include current Federal plans to raise the level of funding
      for the National Institutes of Health (NIH), which would significantly increase the
      number of human subjects participating in clinical trials, and proposals to give Irks
      increased responsibility in the areas of genetic testing and confidentiality.’




                                              1             OEMl-9740193   IRBS: A Time For Reform
This Inquiry and Report
     This inquiry builds on the prior reviews and, we hope, will contribute to the deliberations
     of the currently active Presidential advisory body examining the protections available to
     human subjects.6 This report is one of four that has resulted from our total inquiry. It is a
     summary report that draws on our overall review and on findings presented in the three
     companion reports. It presents a picture of IRE& under considerable stress. It houses our
     recommendations for improving the current system of human-subject protections.

     A second report, Institutional Review Boards: Their Role in Reviewing Approved
     Research, finds that continuing review of approved research is of vital importance but
     that IREJsare devoting little attention to this part of their mission. It also identifies key
     obstacles to effective continuing review. A third report, Institutional Review Boards:
     Promising Approaches, presents innovative strategies that IRE& have developed in six
     key areas of responsibility. These include promising approaches to managing the
     expanding workload and providing education to investigators and members. A fourth
     report, Institutional Review Boards: The Emergence of Independent Boards, finds that
     independent IRBs are becoming a significant force and addresses the advantages and
     disadvantages they present.

     The inquiry that supports each of these reports draws on a rich variety of sources. These
     included analyses of Federal records; reviews of government documents and national
     commission reports produced over the past 25 years; articles and books addressing
     human-subject protections; site visits to IRE& in 6 academic health centers 7; additional
     IRE3 site visits accompanying FDA inspectors; attendance at IRE3 meetings; a survey on
     the electronic e-mail forum for those associated with IRE3s; and the systematic gathering
     of data from representatives of about 75 IRE& of varying sizes and auspices.8 At the
     academic health centers, which are among the most heavily funded biomedical research
     centers in the cour~try,~ we interviewed not only IRB administrators and members, but
     also many others in the parent institutions who had a bearing on IRB performance. These
     included medical school deans; hospital vice presidents; heads of pertinent academic,
     administrative, and clinical committees or departments; attorneys; ethicists; and many
     others.

     The thrust of our information gathering for this and the other reports was to gain a better
     understanding of the big picture involving IRE3s. We focused on the IRB system as a
     whole and on the environment in which they function. We did not conduct an audit of
     their operations, nor did we carry out an investigation of specific IRE& or of specific
     research plans reviewed by IRE3.s.

     We conducted this inspection in accordance with the Quality Standards for Inspections
     issued by the President’s Council on Integrity and Efficiency.




                                                2              OEI-Ol-97-00193   IRRS: A Time For Reform
                        INSTITUTIONAL          REVIEW      BOARDS: THE BASICS

What Do They Do?
 The responsibilities of IRBs fall into two main categories:initial review and continuing review of research
 involving human subjects.
 Initial Review: IRBs review and approve a researchplan before the researchis carried out. This review
 encompassesthe researchprotocol, the informed consent document to be signed by subjects,any
 advertisementsto be used in recruiting subjects,and other relevant documents. In carrying out this review,
 the boards seekto ensurethat any risks subjectsmay incur are warranted in relation to the anticipated
 benefits, that informed consentdocuments clearly convey the risks and the true nature of research,that
 advertisementsare not misleading, and that the selection of subjectsis equitable andjustified. IRBs focus
 much attention on the informed consent document becauseit is the vehicle for providing information to
 potential researchsubjects.
 Continuing Review: The continuing review processis multifaceted and includes required reviews “at an
 interval appropriate to the degreeof risk but not lessthan once per year.” In addition to this continuing
 review, study amendmentsand reports of unexpectedadverseexperiencesby subjectsare received
 periodically and reviewed to ensurethat the risk-benefit ratio of the researchhasnot changedandremains
 acceptable.

Why Were They Established?
  As public awarenessand concern about the treatment of human subjectsin researchincreased,the needfor
  additional review mechanismswas evident. Theseconcerns grew from stories of the abuseof subjectsduring
  the World War II trials at Nuremberg, the promotional distribution of thalidomide resulting in numerous
  children born with birth defects,the administration of cancer cells to chronically ill and senile patientsat a
  hospital in New York, and others. A 1966 article by Henry Beecherbrought prominent attention to human
  researchabusesin medical schoolsand hospitals citing 22 casesinvolving highly questionableethics. The
  formal requirements for the establishmentof IRBs were outlined in regulations stemming from the National
  ResearchAct of 1974 and in FDA regulations issued in 1981.

Where Are They Located?
  An estimated3,000-5,000 IRBs can be found acrossthe country. They are most commonly associatedwith
  hospitals and academiccenters. Boards also exist in managedcare organizations, government agencies(such
  asthe National Institutes of Health, the Centersfor DiseaseControl, and Stategovernments),or asfor-profit
  entities that are independentof the institutions in which the researchtakes place.

How Are They Organized?
  Federalregulations require that boardshave at least five memberswith varying backgrounds. At leastone
  membermust have primarily scientific interests,one must have primarily nonscientific interests,and one must
  be otherwise unaffiliated with the institution in which the IREJresides. A quorum, with at leastonemember
  whose interestsare primarily nonscientific present, is neededfor voting.

How Does the Department         of Health and Human Services (HHS) Oversee Them?
   Two agencieswithin HHS shareresponsibility for IRB oversight: the Office for Protection from Research
   Risks (OPRR) in NIH and the FDA. The OPRR’s main tool for oversight is the assurancedocument. Any
   institution that intends to conduct HHS-funded researchmust have an assuranceon file with OPRR. The
   assuranceis a written statementof an institution’s requirements for its IRB and human-subjectprotections.
   Institutions consistently conducting multiple HHS-supported studies are eligible for a multiple project
   assurance(MPA) which can be renewed every five years. Institutions with smaller HHS-funded workloads,
   however, usea single project assurance(SPA) for each such project it conducts. The OPRRalso conductsa
   small number of site visits. The FDA’s main mechanism for IRB oversight is the inspection process. The
   FDA also inspectsresearchsponsorsand scientists (known as researchinvestigators). A more detailed
t- explanation of the agencies’ oversight processescan be found in appendix C.




                                                       3               OEI-Ol-97-00193   IRRS: A Time For Reform
                                   FINDINGS

The Effectiveness of IRBs Is in Jeopardy.
      As they have for about 25 years, IRBs continue to provide vital protections for human
      subjects. But our inquiry leads us to the troubling central conclusion that the system of
      protections, that has been so carefully developed over the years, is in jeopardy. A recent
      review, published in The Journal of the American Medical Association, offered a similar
      conclusion: “Never before has such a pressure-cooker atmosphere prevailed within the
      IRB system, leading government officials, university administrators, research sponsors,
      and IRB members to wonder whether the IRB system will crack or reform.“”

       This vulnerability becomes especially significant in view of emerging.budgetary
       developments that could add significantly to the number of human subjects taking part in
       clinical trials and proposals to give IRBs increased responsibility in the areas of genetic
       testing and confidentiality. It is crucial, therefore, to understand the major factors that
      jeopardize IRB effectiveness and then to take strong corrective actions. In our three other
       reports we identify and explain a number of such factors. Below, we highlight six that
       are particularly compelling and that buttress the case for reform at a national level.

IRBs Face Major Changes in the Research Environment.

      Federal IRB regulations were formulated during the 1970s and early 1980s at a time when
      most research involving human subjects took place under government funding in a
      university teaching hospital with established research-related controls.” Clinical trials
      typically involved a small cohort of subjects and were generally conducted by a single
      investigator at a single institution.‘2 In the wake of the Tuskegee experiments and other
      research abuses of human subjects, there was considerable awareness of the risks that
      research could pose for human subjects.13 IRB workloads were, for the most part, limited
      enough to allow IRBs ample opportunity to deliberate about the research proposals before
      them.r4

      The environment in which IRBs operate has changed significantly in the past two
      decades. The chart on the next page identifies six major developments contributing to
      this change and outlines some of the key implications for IRBs.

      One of the more visible reflections of this new environment is the widespread advertising
      that sponsors and investigators often rely upon to recruit human subjects. Such
      advertisements are prominently displayed in buses and subways, newspapers, university
      bulletin boards, and other places. Typically, they stress the personal benefits (including
      cash payments) that one may receive by signing up as a research subject and make no
      mention of attendant risks (see appendix A).          _




                                                4            031-01-97-00193   IRIS:   A Time For Reform
                        A CHANGING ENVIRONMENT FOR IRBs
      CHANGE         EXPLANATION                         KEY IMPLICATIONSFOR IRBs
 Expansion of        Emphasison cost control      *Pressuresto accommodateresearchsponsorswho can 

 Managed Care 	      and competition. Squeeze     provide research-relatedrevenuesfor the parent institution. 

                     on researchsupport for       *Increaseddifficulty in obtaining staff and other resources. 

                     academichealth centers.      *More pressureon staff physiciansto generateincome, 

                                                  with lesstime available for voluntary commitmentsto IRBs. 

 Increased           Heightened industry role     l Institutional and sponsorpressuresfor quick reviews. 

 Commercialization   in sponsoring research.      *Sponsorshopping for customer-focusedIRBs. 

 of Research 	       Sponsoremphasison rapid      *Added complexity on issuesinvolving liability, academic 

                     product development.         freedom, and patient disclosure. 

 Proliferation of    Proliferation of trials      *Diminished influence of “local” review. 

 Multi-Center        spreadacrosshundreds of      *Flood of adverse-eventreportsto review. 

 Trials 	            sites, even acrossthe        *Lack of accessto significant information concerning the 

                     world.                        statusof ongoing research. 

 New Types of        Advances in biomedical       *Need for new, highly specializedareasof expertise. 

 Research 	          researchin the areasof       *Emergenceof thorny ethical issuesinvolving informed 

                     genetesting and gene          consentand appropriate research. 

                     therapy; increasedresearch   -Increased importance of having noninstitutional board 

                     on mental health issues.     members. 

 IncreasedNumber     Intensified efforts to       *Significant increasein workloads. 

 of Proposals 	      obtain government funding    *Without sufficient increasesin staff and/or efficiency, less 

                     and to develop new           time is available to review initial protocols and to conduct 

                     products.                    continuing reviews of approvedresearch. 

 Rise of Patient     Increasedconsumer            *Presentsmajor challengesin:
 Consumerism         demand for accessto             Ensuring equitable recruitment of subjects.
                     research.                       Ascertaining local attitudes and values.
                                                     Maintaining distinctions betweentherapy and research.




IRBs Review Too Much, Too Quickly, with Too Little Expertise.

        IRBs across the country are inundated with protocols. Our study sites reported average
        increases of 42 percent in initial reviews during the past 5 years, with the result that some
        of them are now reviewing more than 2,000 protocols. At the same time, these IRBs are
        being deluged with adverse-event reports from the multi-center trials they oversee. One
        IRB we visited had received several boxes of adverse-event reports within the past few
        weeks. Another indicated that it was receiving an average of 200 such reports a month.
        Although the large academic health centers are hit hardest by mounting workloads, small
        IRE!s are suffering as well. Several small IRE3 representatives told us that while the
        number of proposals they review is substantially fewer than at the large institutions, they
 --     often have only one staff member who is responsible for coordinating all IRE3 activities.



                                                     5                OEI-Ol-9740193    IRBS: A Time For Reform
      Despite the increase in workload, staffing levels and budgets have remained the same at
      many IRE3s. At the same time,
      managed care cost pressures have
      constrained the time that IRE3members                         IRBs Under Pressure
      have to devote to reviewing protocols.
      In an effort to cope, many rely on pre-       The agendasof the IRB review meetingsat
      assigned reviewers to examine and             academichealth     centerswhere most of the HHS­
                                                    sponsoredresearchoccurs arepacked, leaving
      summarize research plans for the entire       busy reviewers little time to reflect on and debate
      IRB. In some IRBs, unless one of the          issuesraised by researchprotocols. As an
      assigned reviewers raises a question or       illustration, at the siteswe visited, their most
      concern about the research, the IRE3          recent   meetings typically lastedabout 2 % hours
      engages in little or no discussion at its     and   included an averageof 18 initial reviews, 9
                                                    expedited reviews, 43 protocol amendments,and
      meeting.15 While some IRE& have been          2 1 adverse-eventreports.
      able to increase the length of their
      meetings, others squeeze more reviews
      into a fixed block of time. With limited personnel and few resources, IRBs are hard
      pressed to give each review sufficient attention. A 1996 GAO report stated that some
      Irks may spend only one to two minutes of review per study.16

      Many IRBs find that they lack sufficient scientific expertise on their boards or staffs to
      adequately assess protocols. For example, protocols involving advanced biomedical
      techniques--such as gene testing--raise scientific issues, as well as moral and ethical
      questions, that might not be apparent to the untrained eye. From time to time, IRBs will
      use consultants to fill the gap, but this can be costly and can bog down an already
      overburdened review process.

IRBs Conduct Minimal      Continuing    Review of Approved       Research.

      Continuing review has become a low priority at many IRBs, often relegated to the last
      few minutes of a meeting. For example, at one IRE3 meeting we observed, several annual
      reviews and amendments were approved within the last 15 minutes of the 2 ‘%hour
      meeting. At another site, several members were visibly hurried to end the almost 6 hour
      meeting and the board relied mainly on the assessment of the primary reviewer for the
      annual re-reviews. One IRE3member told us that he reviews the continuing review
      summaries during the board meeting to see if a patient has died. If no patient has died,
      then he generally will not raise questions.

      Continuing review is a paper-based activity at many IRE3s. At the six academic medical
      centers we visited, officials reported that during the past year they seldom visited the
      research site. Five of the 11 independent boards we interviewed reported that they have
      no routine policy for visiting the research sites under their purview. Although many IRBs
      would like to, very few oversee the consent process or solicit feedback from subjects.
      According to one IRB chair, the lack of resources has forced IRE&sto rely on the
      willingness of investigators to provide timely, accurate reports to the IRK Many




                                                   6             OEI-Ol-97-00193   IRBS: A Time For Reform
       members are uncomfortable with this degree of reliance on self-reported data and would
       like to devote more attention to continuing review.

       Continuing review is further limited by the inadequate information IRBs receive from
       outside sources. There is little communication between the Data Safety Monitoring
       Boards, which are established by sponsors to oversee many of the large-scale trials, and
       the IRB. The adverse-event reports that the IRBs receive from sponsors arrive without
       sufficient contextual information to make them meaningful. When FDA issues a warning
       letter to a clinical investigator, it typically does not inform the IRB.‘7 And, when a
       sponsor or investigator submits a research plan to the IRB, it may not inform the RI3 of
       any prior review of that plan by another IRB. ’*

       In an effort to improve continuing review, the OPRR and FDA have issued interpretations
       of Federal requirements in the forms of Dear Colleague letters and Information Sheets.lg
       Many of these are outlined in appendix B. From the perspective of the IRBs, some of
       these have served to reduce IRE3flexibility and add to their burdens. Of particular note is
       the OPRR issuance reinforcing the Federal intent that IRBs conduct substantive and
       meaningful annual reviews of active protocols. This issuance, some conclude, has had a
       particularly disruptive and demoralizing effect on many IRBs.~’

IRBs Face Conflicts that Threaten Their Independence.

       Clinical research is an important revenue source for most academic health centers. For
       example, at one of our sites, about 25 percent of the operating budget (nearly $200
       million) derives from research activities. For decades, under the fee-for-service system,
       research expenditures were subsidized by patient-care revenues; under managed care,
       however, traditional financial support for research activities has been diminishing. In the
       process, commercial sponsorship has become increasingly important. At the academic
       health centers we visited, commercial sponsorship accounted for as much as 50 percent of
       the research funding.

       Commercial sponsorship of research has heightened the potential for conflicts of interest.
       We found several examples of hospital IRBs that are housed in offices of grants and
       contracts or in clinical research programs, the very offices geared to bringing in research
       dollars. Such organizational placements, while not necessarily representing a conflict,
       certainly can accentuate pressures on IRBs to accommodate institutional financial
       interests. Independent IRBs, which primarily review commercially sponsored research,
       are subject to similar pressures. This may be particularly so for those independent IRBs
       that are owned by contract research organizations:’ and those that allow equity owners to
       participate in the review process. The NIH policy for HHS-funded research reviews by
       for-profit IRBs is to prohibit IRB equity owners from participating in the review process,
       but there is no such policy for industry-sponsored studies submitted to FDA.

 ..-   The phenomenon of IRB shopping, in which research sponsors seek out the IRB they
       choose to work with, places considerable pressure on IRBs and their institutions.


                                                7             OEI-tIl-97-00193   IRBS: A Time For Reform
         Commercial sponsors seek quick turnaround reviews for their protocols and can be tough
         negotiators on publication rights, liability issues, and other matters. Many academic
         health centers are struggling to respond to this new environment. They find it especially
         difficult to be as timely in their reviews as the independent, typically for-profit IRBs that
         are a growing presence. While they rarely can conduct initial reviews within a month, the
         independent IRBs often do so in little more than a week.22

         Federal regulations calling for at least one IRB member whose concerns are primarily in
         nonscientific areas and orie member who is not otherwise affiliated with the institution
         aim to provide a counterbalance to the kind of pressures noted above. But, we found few
         such “outside” members on the boards. Few IRBs seem to seek or to be able, on a
         consistent basis, to recruit and maintain lay and/or nonaffiliated members who play an
         active, effective role in helping the IRBs stay focused on their mission of protecting
         human subjects. It is not unusual for an IRB of 15 to 20 or more members to include only
         one or two noninstitutional members.

IRBs and Their Institutions     Provide Little Training    for Investigators      and Board Members.

         The IRB officials that we spoke with fully recognize the significance of educational
         outreach to research investigators and board members. Many have been active in holding
         seminars and/or providing individualized assistance to help investigators become more
         informed about and sensitized to human-subject protections. But nationally, in the
         context of the numbers of investigators and the complexity of the issues, such efforts are
         minimal. Further, they face significant obstacles which include not only insufficient
         resources, but the reluctance of many investigators, especially experienced ones, to
         participate.

         For new RI3 members, their orientation to the role is seldom much more than a stack of
         materials to read and on-the-job learning. A 1995 survey of 172 university-based IRBs
         found that one-quarter offered no training at all to their members. At the vast majority of
         institutions, training was limited to less than four hours. 23 This limitation is especially
         detrimental to the “outside” members who tend to need grounding not only in the basics
         of the regulations but also, in many cases, in the basic concepts, approaches, and terms
         associated with scientific research. The lack of such training further impedes their ability
         to serve as an effective counterbalance to institutional and scientific interests.

Neither IRBs nor HHS Devote Much Emphasis to Evaluating               IRB Effectiveness.

         As we conducted our inquiry, we became increasingly aware of a striking reality: IRBs
         have little basis for knowing how well they are accomplishing their mission of protecting
         human subjects. The IRB and institutional officials we spoke with typically felt that their
         IRBs were quite successful. But when we asked them their bases for that judgment, they
         almost invariably pointed to the lack of serious problems or complaints that have come to
 ..” 
   their attention. Such factors are, of course, relevant to assessing effectiveness, but in
         themselves provide a weak foundation. Seldom, we found, do the IRBs seek out


                                                   8             OEI-Ol-9740193    IRBS: A Time For Reform
feedback from human subjects or their families, examine the few complaints that they do 

receive to determine if they reflect broader, systemic problems, or initiate probing 

inquiries--for example, to determine how the informed consent process is actually 

working. Even more seldom, it appears, do independent, outside parties conduct such 

evaluations. 


Federal oversight does not compensate for these deficiencies as it, too, is not geared to 

evaluating effectiveness (see appendix C). The OPRR’s oversight is limited almost 

entirely to upfront assurances aimed at obtaining an institution’s commitment to adhere to 

Federal requirements.24 The majority of IRB staff we spoke with viewed the assurance as 

a paperwork process having no impact on RI3 functioning. Only in instances of alleged 

breakdowns in RI3 protections has the OPRR conducted site visits. Some of these 

reviews represent the most probing and results-focused inquiries we have found of IRB 

performance, resulting in strong recommendations to the IRBs. But because of resource 

shortages, they are infrequent. Between April 1997 and May 1998 only one such visit 

was carried out. 


The FDA oversight involves a more frequent on-site presence. In 1997, they conducted a 

little under 200 site visits (see appendix C). These visits are carried out by FDA 

inspectors who often are also responsible for inspections focusing on food products, 

research sponsors, and clinical investigators. They focus almost entirely on IRB 

compliance with the procedural requirements set forth in Federal regulations--concerning 

matters such as attendance at review meetings, completeness of minutes, and a review of 

the informed consent document. Such matters can be important indicators of 

performance, but they offer FDA little direct feedback on the actual effectiveness of 

IRBs. For instance, in an information letter to IRBs, FDA calls for them to make certain 

that individuals understand what they are consenting to when they agree to participate in a 

research effort. Yet, FDA’s inspection process does not extend beyond determining that 

informed consent forms contain all the appropriate elements and that they have been 

reviewed by the IRB. For example, the FDA inspectors do not review the adequacy of 

the IRBs’ own bases for determining subject understanding. 





                                         9            OEI-Ol-97-00193   IRBS: A Time For Reform
The stress that so many IRBs now face compromises the protections that IRBs seek to
provide to human research subjects. Federal leadership can be instrumental in addressing t
this vulnerability and in shoring up the system of protections that is vital to the continued
progress of biomedical and behavioral research. It is toward this end that we present our
recommendations. We call for some strong and inevitably controversial actions. But, the
recommendations also seek to minimize unnecessary Federal regulation. They reflect a
respect for the largely collegial manner in which IRBs operate and aim to nourish the
volunteer contributions that have provided the underpinning of IRB reviews. They also
take into account the increasingly important role being played by independent IRBs.

We direct most of our recommendations jointly to the Office of Protection from Research
Risks (OPRR) which is located within the National Institutes of Health (N1I-I)~’ and to
the Food and Drug Administration (FDA), since they are the two focal points for IRB
oversight in the Department of Health and Human Services (HHS). In those instances
where we direct a recommendation to one of the agencies, we specify the agency.

In presenting our recommendations jointly to NIWOPRR and FDA, we fully recognize
that they have different jurisdictions, mandates, and operational approaches. Yet they are
bound by a common intent to protect human subjects and by what is, for the most part, a
common set of regulations. If they are to respond effectively to the very serious warning
signal that our findings present, then it is essential that they collaborate closely among
themselves and with other pertinent HHS components. In that context, they might also
address how the Department’s responsibilities for overseeing IRBs could be organized in
a manner that is most effective and allows for the clearest possible Federal leadership.

In their deliberations on how to enhance human-subject protections, we also urge
NIWOPRR and FDA to take the lead in finding ways to involve other non-HHS parties.
This should include representatives of the research community, the institutions in which
IRBs are located, and most of all IRBs themselves. Many of these individuals bring
valuable front-line perspectives on how best to protect human subjects and can offer
valuable insights into how the Federal government can provide effective leadership.

Finally, we must emphasize that emerging developments add a sense of urgency to the
reforms we propose. Most notably, these include Federal plans to increase substantially
the Federal investment in cancer and other biomedical research. This expanded research
holds forth great potential benefit to society and perhaps even to subjects participating in
clinical trials, but at the same time it will add to the review burden of IRBs. So too, if
enacted, could recent proposals to expand IRB responsibilities in overseeing genetic
testing and in ensuring patient confidentiality. In considering these developments, it is
particularly vital that sufficient financial provisions be made to buttress IRB and Federal
efforts that aim to provide essential protections for research subjects.




                                          10            OEI-Ol-97-00193   IRRS: A Time For Reform
1. Recast Federal IRB Requirements so that They Grant IRBs
Greater Flexibility and Hold Them More Accountable for Results.
       Such a redirection is an essential starting point. We have found that RI3 members and
       staff tend to be strongly committed to human-subject protections and have many ideas
       about how to improve performance. Our report on promising approaches reveals many of
       the innovative efforts they are undertaking, even under current restraints?6 The
       NII-I/OPRR and FDA could help unleash further innovation by giving IRBs more
       flexibility in how they carry out their responsibilities. But, in doing so, a necessary quid
       pro quo, we believe, would be a greater accountability for results.

       What we call for here is in accordance with what is occurring generally in the field of
       health care quality assurance. For instance, in recently announcing major reforms in
       Federal conditions for hospitals’ participation in Medicare, HHS Secretary Shalala noted:
       “We are doing away with old requirements that focused on process rather than results,
       and instead we’re telling hospitals that they must monitor the quality of care they provide,
       improve that quality, and document that improvement.“27

1 a. Eliminate or Lessen Some of the Procedural      Requirements     that Federal Regulations
Impose on IRBs.

       The aim here should be to enable IRBs to be more strategic in how they use their limited 

       time and resources and, in that context, to concentrate their attention on those research 

       practices posing the greatest risks to human subjects. Too much of their attention now 

       focuses on perfunctory review responsibilities yielding little protective value. 


      The NIH/OPRR and FDA should work with IRBs and others in identifying the specific 

      Federal requirements to be eliminated or modified. One especially strong candidate is the 

      requirement that IRBs conduct full, annual reviews of approved protocols. On the basis 

      of our review, this mandate generates substantial burdens on IRBs and does not have the 

      intended effect. It compels IRBs to devote too much effort to routine, paperwork reviews 

      at a time when the quantity of that paperwork is mounting. It impedes them from taking a 

      more strategic approach--one that would enable them to concentrate on research 

      involving substantial risks to human subjects, to conduct periodic reviews, and to visit 

      research sites to determine how the informed consent process is actually working. 


       Another candidate for consideration would be what some call the “unfunded mandate,” 

       whereby IRBs must conduct complete reviews of Federal funding applications prior to the 

       funding decisions. Other candidates would be those Federal requirements that limit what 

       IRBs can accomplish in conducting protocol reviews outside of convened board 

       meetings.28 





                                                11            OEI-Ol-97-00193   IRBS: A Time For Reform
1 b. Require that All IRBs Under the Purview of NIH/OPRR and FDA Undergo Regular
Performance-Focused Evaluations that are Carried Out in Accord with Federal Guidelines.

      This is the direction called for by the Advisory Committee on Human Radiation
      Experiments. In its 1995 report, it concluded (as we have) that the Federal system for   ’
      overseeing IRE& is inadequate. An adequate system, it indicated, would require “that the
      system be subjected to regular, periodic evaluations that are based on an examination of
      outcomes and performance and that include the perspective and experiences of research
      as well as the research community.“2g

      Federal guidelines for IRB evaluations should call for the evaluation results to be
      available to the public (to foster accountability). The guidelines should be minimal and
      should stress assessments of IRB effectiveness. In this regard, they should be attuned to
      the Institute of Medicine’s recent recommendation that IRE3 systems be examined to
      determine how well they are functioning. Among the basic questions posed by the IOM
      that we believe warrant particular attention are the following: “1) Are IRE& successfully
      representing the interests of human subjects in research and not merely those of the
      sponsoring institution? and 2) Do IRE3sgenerally fulfill their goals?“3o We suggest that
      NIWOPRR and FDA convene symposia with IRE3sto discuss the type of performance
      measures and evaluations that would foster a system of accountability based more fully
      on results.31

      The federally mandated evaluations could be self-evaluations or, better yet, ones
      conducted by independent, outside parties. Their frequency should depend on the
      quantity of protocols being reviewed by an IRl3, but probably no less than every 5 years.
      To reinforce their importance, NIWOPRR could include an evaluation requirement as a
      component of the assurances it obtains from research institutions.


2. 	Strengthen Continuing Protections for Human Subjects
Participating in Research.
      In a prior study focusing on investigational medical devices, we found significant
      deviations from IRB-approved protocols and raised concerns about the adequacy of IRB
      oversight of such protocols.32 In this study, which was more broadly based, we found
      little basis for easing those concerns; in fact, they have been intensified.

      It is essential, we believe, for NIWOPRR and FDA to ensure more rigorous and
      accountable oversight of research approved by IRBs. As we have noted, the current
      regulatory infrastructure was established at a time when research was typically conducted
      by a principal investigator, working at one institution, with a local cohort of subjects?3
      Now, a significant portion of IRE3approved research is part of multi-site trials involving
      many investigators and subjects at sites across the nation and even the world?4 The
      Federal regulations should be updated to account more fully for these changed
      circumstances.


                                              12            031-01-97-00193   IRBS: A Time For Reform
2 a. Require Data Safety Monitoring Boards for Multi-Site Trials that are Under
NIWOPRR and FDA Purview and that Meet Specified Conditions Warranting Such a
Safeguard.

      Data Safety Monitoring Boards (DSMBs) are independent review bodies that review
      ongoing research to assess the efficacy of the data, the adherence of the research to the
      approved protocols, and the continued safety of the subjects. These boards include
      medical, scientific, and other expertise that typically is not available on IRBs. The NIH
      institutes do require DSMBs for many of the cooperative group projects they fund. But,
      there are no Federal regulations calling for the routine establishment of DSMBs?5 The
      NIWOPRR and FDA should take the lead in seeing that DSMBs become more firmly
      established as oversight mechanisms and be made more clearly accountable in that
      regard. ‘Among their designated responsibilities should be those of assessing,
      summarizing, and determining when and how to follow up on adverse-event reports
      submitted by sponsors/investigators.

      The NIWOPRR and FDA should define the types of trials for which DSMBs would be
      required. These could include trials that involve many subjects, that include control
      groups not having access to the research interventions, and/or that involve new drugs,
      devices or procedures that present significant risks to human subjects. In addition, the
      NIWOPRR and FDA should set forth requirements for the composition of DSMBs.

2 b. Provide IRBs with Regular Feedback on Developments Concerning             Multi-Site   Trials.

      As we have noted, a substantial portion of the research that many IRBs now oversee 

      involves local research investigators and local subjects participating in national or 

      international multi-site trials bound by a common research protocol. To provide adequate 

      continuing review in these situations, IRBs must be informed about key developments 

      concerning the trial as a whole. For instance, if an IRB receives a report about an 

      unexpected adverse outcome experienced by a local subject, it will be hard pressed to 

      assess the significance of that information unless it knows how many such outcomes have 

      occurred for the overall trial. During the course of our inquiry, we identified two key 

      sources of information of this kind that should regularly be shared with IRBs. 


      First, and probably most important, is information from DSMBs. Instead of receiving 

      large quantities of individual adverse-event reports submitted by sponsors and 

      investigators, IRBs should receive compilations and assessments of those reports 

      prepared by DSMBs. At present, most IRBs receive little if any feedback from DSMBS?~ 

      Routine, substantive feedback from DSMBs would allow the IRB to concentrate its time 

      and resources on reviewing that which it knows best--the continued suitability of the local 

      environment to the research project in question. Regular feedback from the DSMB will 

      serve to increase the effectiveness and thoroughness of IRB reviews, as well as its 

      efficiency. 





                                               13            OELOI-97-00193   IRRS: A Time For Reform
       A second important, external source of information is that which federally funded
       cooperative research groups obtain from their monitoring visits to research sites that are
       part of a single protocol.37 This is valuable information collected and analyzed by
       individuals expert in the research being conducted. The reports incorporating this
       information are sent to the research investigators, but rarely are shared with the NBS!*
       The IRBs should receive these reports routinely and thus have the opportunity to draw
       upon them as a complement to their own reviews.

2 c. Routinely Provide IRBs with Feedback on FDA Actions Taken Against Investigators
Under their Jurisdiction.

       The FDA inspections of research investigators can result in a variety of actions, from
       warning letters to a disqualification from participating in pre-market research. Officials
       at FDA indicate that legal restrictions under the Privacy Act preclude FDA from
       disclosing all investigator-related correspondence to Irks and sponsors on a routine
       basis. Certain information, however, is available to the public on an FDA web site or
       through the Freedom of Information Act. But many IRBs do not have the time to
       regularly scan the FDA website and might not know when to request information from
       the FDA about one of their investigators. The FDA is in the process of seeking approval
       to modify the relevant Privacy Act systems notice so that the sharing of this information
       with IRBs and sponsors will be made easier. We think this is important as the lack of
       information sharing puts IRBs in an untenable position if they are to be held accountable
       for protecting the interests of human subjects.

2 d. Require Sponsors and Investigators     to Notify IRBs of any Prior IRB Review of a
Research Plan.

       We heard of a few situations where sponsors and/or research investigators who were
       unhappy with one IRB’s reviews switched to another without the new IRB being aware of
       the other’s prior involvement. This kind of IRB shopping deprives the new IRB of
       information that it should have and that can be important in protecting human subjects.
       The ground rules should be changed so that the sponsors and investigators have the clear
       obligation to inform an IRB of any prior reviews. 3g The obligation should be applied to
       all those conducting research funded by HHS or carried out on FDA-regulated products.
       It will have particular importance for those sponsors and investigators working with
       independent IRBs.

2 e. Call for Increased IRB Awareness of On-Site Research Practices Involving Human
Subjects.

       To some readers, this recommendation might represent a violation of the long established
       ethic of trust that has guided IRBs’ relationships with the research community. It might
       be interpreted as “surveillance” and “policing” that could compromise the research
 --    enterprise. But given the scope and type of research now under the purview of IRBs, the
       risks that much of this research presents to human subjects, the widespread blurring of


                                                14            OEI-OI-9740193   IRBS: A Time For Reform
     research and therapy, and, the kinds of violations we identified in our previous OIG
     report, trust alone does not provide sufficient continuing protection. The credibility of the
     IRB process in protecting human subjects requires more. While trust must remain an
     important part of the system, it should be accompanied by a greater readiness to verify
     that IRE3sare accomplishing their consumer protection mission. Such verification is
     allowable under current Federal regulations and, in fact, consistent with the intent of the
     National Commission that laid the groundwork for those regulations!o

     Increased awareness of actual practice is consistent with our earlier call for a greater
     focus on results and can be carried out, we believe, in a manner that does not shatter the
     foundation of trust. For projects that are particulary sensitive and/or risky, the increased
     awareness we call for can involve observers, intermediaries, or counselors who are
     available to make sure that the informed consent process functions in the interests of the
     human subjects. It can involve periodic, announced or unannounced, random visits by
     IRE3representatives, both to review pertinent records and to observe the informed consent
     process. It can involve surveys of and/or focus groups with human subjects. As
     illustrated in our report on promising approaches, several IRBs have begun implementing
     these techniques.4’ However it is done, the aim should be to provide IRE& with greater
     assurance that stated intentions involving human subjects are, in fact, being fulfilled.


3. 	Enact Federal Requirements that Help Ensure that Investigators
and IRB Members are Adequately Educated About and Sensitized
to Human-Subject Protections.
     In the final analysis, the most important continuing protection for human subjects is the
     presence of well-trained and sensitized investigators. Such investigators can also serve to
     minimize the need for regulatory intervention, be it by the Federal government or by IlU3s
     themselves. Accordingly, our recommendation calls for strong Federal action concerning
     education. It is in accord with the President’s May 1997 statement of apology for the
     ethical transgressions of the Tuskegee syphilis study. In that statement, the President
     announced a commitment “to strengthen researchers’ training in bioethics” as a means of
     ensuring that human subjects ’ “rights and dignity will be respected as new drugs,
     treatments, and therapies are tested and used.‘*2

     The NIH is well positioned to assume a leading role here since it funds a significant
     portion of the biomedical and behavioral research in the country. It can help convey to
     researchers that along with the considerable independence that they enjoy in the research
     process there exists a significant responsibility to ensure that human subjects are
     protected in accord with established principles and Federal law. It can assist IRBs and
     their institutions by developing generic educational materials and model curricula. The
     NIH may want to consider working with the FDA, and with groups such as PRIM&R and
     ARENA, to develop these materials.




                                               15            OEI-Ol-97-00193   IRBS: A Time For Reform
3 a. Require that Institutions Receiving Funding Under the Public Health Service Act for
Research Involving Human Subjects Have a Program for Educating its Investigators on
Human-Subject Protections.

       This is similar to and an extension of a current NIH requirement calling for institutional          ’
       recipients of research training grants to have acceptable plans for instructing trainees in
       the responsible conduct of research.43 It parallels a recommendation offered in 1995 by
       the Commission on Research Integrity44 and is the kind of recommendation that
       NIWOPRR sometimes directs to an institution after it has investigated a lapse in the
       institution’s system of human-subject protections. Such a requirement is currently in
       place for research involving animals.

       The education we call for could be provided through various modalities such as seminars,
       individual instruction, videos, or on-line tutorials. A number of the IRE& we interviewed
       have, of their own accord, developed innovative educational programs along the lines we
       call for. The NIWOPRR could promote these efforts and our recommendation generally
       by calling for an educational assurance as part of its multiple project assurance (MPA)
       with health care institutions. This assurance would more clearly commit the institutions
       to seeing that its investigators have appropriate training in human-subject protections.
       Further, since institutions with MPAs typically apply the IRE3requirements to all research
       conducted by affiliated researchers whether or not they are funded by NIH, such an
       educational assurance could help to reach a larger universe of investigators than just those
       funded under Public Health Service Act programs.

3 b. Require that Investigators Receiving Funding Under the Public Health Service Act for
Research Involving Human Subjects Provide a Written Attestation that They Are Familiar
With and Will Uphold Federal Policies Concerning Human-Subject Protections.

       This recommendation, which again parallels one that the Commission on Research
       Integrity set forth with respect to the “the responsible conduct of research,” asks that the
       investigators acknowledge their awareness of the pertinent policies and procedures. It
       aims to heighten their awareness of their responsibilities as investigators and their interest
       in participating in educational programs addressing human-subject protections. The
       FDA, it is important to note, already requires a similar attestation for investigators
       submitting an investigational new drug application or investigational device exemption to
       the agency!’ Further, some of the institutions we contacted already require that
       investigators sign statements assuring the IRR that they are familiar with and will adhere
       to the human-subject protection requirements.

       Even with such an attestation, we recognize that its effectiveness is likely to depend
       heavily on high-quality educational offerings being readily available to investigators. The
       prior recommendation calling for institutions to provide educational offerings responds to
       this need. The NIWOPRR and FDA could also help meet it by conducting more
  W” 	 educational outreach of their own. This could involve the convening of conferences, as
       they have periodically, as well as preparing and disseminating self-study materials.46


                                                 16            OEI-Ol-97-00193   IRRS: A Time For Reform
3 c. Require that Each IRB Under the Purview of NIIWOPRR or FDA Have an Orientation
Program for New IRB Members and a Continuing Education Program for All Members.

       The core content of these education programs should cover not only the basic
       requirements spelled out in Federal law, but also a broader review of ethical principles
       governing human-subject protections and of ways in which IRBs can address those
       principles. For noninstitutional and nonscientific board members, the educational
       programs should also serve as a primer on scientific and research issues, with the intent of
       helping the members gain a better appreciation of key concepts, terms, and context. Here,
       again, a prescription that NIH/OPRR sometimes offers as a corrective action in response
       to an adverse event involving human subjects should be incorporated on the front end as a
       required preventive measure and could be included as part of multiple project assurances.


4. Help Insulate IRBs from Conflicts that Can Compromise Their
Mission in Protecting Human Subjects.
      Two long-time analysts of IRBs have described IRB regulations as “a permeable shield,
      with no strong framework to ensure that the subjects’ interests take precedence over
      institutional ones.” They added that in balancing risks and benefits, an IRB “that
      consistently makes the calculus in favor of research will hardly ever be identified.‘d7
      While many Federal and IRB officials are likely to object to this assessment, the minimal
      information they have on the effectiveness of IRBs makes it difficult for them to rebut it.
      Even more troubling, in an environment where IRBs are expected to be responsive to the
      financial pressures facing their parent institutions and/or the sponsors, some IRBs are
      finding it difficult to maintain sufficient focus on their core mission; thus the above
      recommendation.

      Our point is not that IRBs can or should be completely independent entities impervious to
      developments in an increasingly market-based health care system. Rather, it is that they
      and the Federal government must be alert to pressures that might lead some IRBs to
      become overly accommodating to the significant financial pressures that surround them.
      One of the most important roles that NIWOPRR and FDA can play is to help prevent
      such accommodations.

4 a. Require More Extensive Representation      on IRBs of Nonscientific        and Noninstitutional
Members.

      This is a vital matter that responds to a commitment that the President made in his May
       1997 Tuskegee statement.48 Individuals not associated with the institution or with the
      research enterprise can provide a valuable counterbalance to pressures that threaten IRB
      independence. But to do so, it is important not only that they be well-trained, but also
      that there be enough of them on a board so that their-voices are more likely to be heard
 W” 	 and their sense of belonging more likely to be enhanced. The current requirement that
      there be one noninstitutional and one nonscientific member on a board (this requirement


                                                17            OEI-Ol-97-00193    IRBS: A Time For Reform
        can be satisfied by the selection of a single individual) is clearly inadequate in this regard.
        In its 1978 report the National Commission recommended that at least one third but no
        more than two thirds of IRE3 members be scientists as a way “assure the IRE3’s access to
        [scientific] expertise, yet guard against self-interest influencing or appearing to influence
        IRE3 determination.“’    The case remains strong both for increasing the number of              ’
        noninstitutional and nonscientific members and for requiring that at least one
        noninstitutional member be present at any board meeting where research plans are
        reviewed. It may well be desirable, we would note, to include scientists among the
        noninstitutional members considered for IRBs.

4 b. Reinforce to IRBs and Their Parent Institutions the Importance of IRBs Maintaining
Sufficient Independence in Their Mission to Protect Human Subjects.

        We suggest that an IRB with sufficient independence is one that is not under any
        institutional or ownership pressure whatsoever to approve protocols and related
        documents; bases it reviews on the merits of a proposal and the attendant risk/benefit
        ratio, without regard for business concerns; does not report directly to the part of the
        institution responsible for bringing in research funds; is not compensated based on the
        outcome of a review; and has recourse, should it feel subject to any pressure.

        Through “Dear Colleague” and informational letters, NIH/OPRR and FDA could draw
        greater attention to the danger signs that inhibit IRE3sfrom operating with sufficient
        independence and to the kind of preventive measures that they and parent institutions
        might take to ensure a proper focus on their core mission. The FDA, in its compliance
        site visits, could give special attention to the emergence of any of these signs and could
        bring them to the attention of the IRE3 and its parent institution. The NIWOPRR could
        reinforce the issue by including in its multiple project assurances a clause that institutions
        will afford their IRBs sufficient independence in their mission of protecting human
        subjects. Although the immediate, practical effect of such a commitment is uncertain, it
        could serve to generate additional consideration to this important matter.

4 c. Prohibit   IRB equity owners from participating       in the IRB review process.

        Such participation, in itself, does not necessarily inhibit the independence of the review
        process, but it creates a situation that can be conducive to ownership influence in that
        process and, certainly, it undermines a perception of impartiality. The OPRR practice of
        prohibiting such participation should be formalized. The FDA should follow suit and
        prohibit ownership participation in IRB reviews for industry-sponsored research on
        products to be submitted to FDA for approval.


5. Recognize the Seriousness of the Workload Pressures that Many
IRBs 	Face and Take Actions that Aim to Moderate Them.
 vu


                                                   18             OEI-Ol-97-00193   IRBS: A Time For Reform
      Federal actions along the lines we have called for in our previous recommendations
      would help reduce IRB workload pressures. IRBs would be freed of a number of
      procedural requirements that are of questionable value and of the torrent of adverse-event
      reports they now receive. Further, if greater educational outreach led to investigators
      becoming better informed about the purpose and particulars of regulations to protect
      human subjects, IRBs quite likely would find that research applications submitted by
      these investigators would require fewer changes (thus saving IRE3s’ time).

      Yet, even with such changes, the adequacy of the resources available to IFU3swould
      remain a significant issue of concern. If the external pressures we have described in this
      report continue (as seems likely) and if IRBs do more continuing reviews and evaluation
      (as we call for), IRBs could still be struggling to maintain a sufficient level of human and
      other resources (such as computer equipment and office space).


5 a. Require That IRBs Have Access to Sufficient Resources to Enable Them to Carry out
Their Responsibilities as Intended in Federal Law.

      The resources we refer to are, above all, the human resources represented by staff and
      board members, but also space, computers, and other elements essential to an efficient
      and effective IRE3. We recognize that the term “sufficient” is a general one, not easily
      measured.” Yet, the centrality of the resource issue and the clear shortages that many
      IRBs now face, call for enhanced Federal attention to it. One direction that NIWOPRR
      and FDA could take toward that end could be the development of indicators of minimally
      adequate resource levels, below which IRBs are likely to find themselves in a danger
      zone. For instance, these could involve measures of numbers of staff and board members
      to the number of active protocols, or the number of protocols reviewed per meeting. As a
      starting point, the NIWOPRR and FDA could survey IRBs about their current resource
      levels.

      The NIWOPRR Multiple Project Assurance currently requires institutions to provide
      meeting space and sufficient staff When negotiating an MPA, the NIWOPRR could
      reinforce the importance of resource adequacy by bringing the same scrutiny to it when
      negotiating those assurances as it does when conducting an investigation of an IRB’s
      lapse in protecting human subjects.51 Similarly, the FDA could modify its site visit
      protocol to identify signs of inadequate resource levels to use that information to present
      recommendations, or if serious enough, warning letters to the IRE& involved.


6. Reengineer the Federal Oversight Process.
      As it now functions, the Federal oversight of IRE& is not equipped to respond effectively
      to the warning signal we present in this report. -l-heFDA conducts just under 200 IRB
      site inspections a year, but its procedural, compliance-focused reviews reveal little about
      IRB effectiveness in protecting human subjects. The NIWOPRR, on the rare occasions


                                               19            OEI-Ol-97-00193   IRBS: A Time For Reform
      when it visits IRBs, gets closer to assessing IRB performance but its emphasis on upfront
      assurances is of questionable value. Further, while there is some sharing of information
      between the two agencies, they operate in very different domains, rooted in separate
      statutory bases and organizational cultures.

      It is time, we believe, for a fundamental reexamination and reengineering of the HHS
      oversight process, viewed as a whole. The principal aims of this ambitious effort should
      be twofold: (1) to develop more streamlined, coordinated, and probing means of assessing
      IRB performance and (2) to enhance the Federal capacity to identify and respond to
      emerging problems before they result in serious transgressions.

6 a. Revamp the NIIWOPRR       Assurance Process

      We suggest reorienting the assurance process so that it rests essentially on an institutional
      attestation to conform to the IRB requirements set forth in Federal regulations.52 This
      attestation could be provided in a brief statement referencing the pertinent regulations.
      As a result, the scarce NIWOPRR resources that are now devoted to reviewing and
      negotiating assurances could be freed up to conduct periodic performance-based reviews
      along the lines we have been noting and to provide education to help investigators and
      IRB members become knowledgeable about and sensitized to human-subject protections.

      Along this line, we also suggest that NIWOPRR consider providing some incentive for
      smaller IRBs to tie in with larger ones (both hospital-based and independent) that can
      bring more experience to the job. This is important in view of the increased complexity,
      sensitivity, and scale of so much of the research taking place. It is also important because
      it could help concentrate Federal oversight resources more effectively, moving in the
      directions we call for in the prior recommendations.

6 b. Revamp the FDA On-site Inspection Process.

      This is especially important under current conditions whereby FDA is the only HHS 

      agency conducting IRB site visits with any degree of regularity. We recognize that there 

      is some value to the compliance checks that are the core of FDA inspections. But we 

      suggest that FDA search for ways of revamping its inspections so that they focus less on 

      narrow compliance matters and more on performance issues. Such reviews would probe 

      deeper and wider and would pay particular attention to how individuals are actually being 

      approached about participating as human subjects and to how IRBs are making 

      continuing assessments of risk-benefit trade-offs. 


      We suggest further that FDA and NIWOPRR collaborate on ways in which they could 

      focus more directly on “front-line” practices that have particular bearing on human 

      subjects. For instance, they might probe on how often potential subjects actually turn 

      down requests to participate in research or on how much time they are given to deliberate 

      about participation. They might also examine the marketing approaches being used to

 *-



                                                20             OEI-Ol-97-00193   IRBS: A Time For Reform
      entice the participation of subjects, paying particular attention to whether too much
      emphasis is given to potential personal benefits and not enough to risks.

      Both FDA and NIWOPRR could enhance a performance focus by finding ways in which
      experienced IRB members and staff could play some on-site role in reviewing IRB
      performance.s3 The Federal agencies could include such a peer review element as part of
      some of its own reviews and/or offer some kind of incentive for IRBs to include it as part
      of a continuous quality improvement effort. In either case, it would represent a way of
      incorporating greater outside expertise into site reviews focusing on performance.

6 c. Require That All IRBs Register with the Federal Government          and on a Regular Basis
Report Minimal Descriptive Information.

      Uncertainty as to the number of IRBs subject to regulatory oversight by FDA and
      NIH/OPRR is a major hindrance to effective oversight by these agencies. We recognize
      the concerns about Federal intrusions that could add unnecessary burdens to the research
      process. We suggest that a requirement that all IRBs register with the Federal
      government need not be much of an intrusion. It could involve a simple registration
      process in which IRBs regularly update the Federal government on minimal descriptive
      information. This information, for example, could include their location, contact
      information, and the number of protocols and human subjects under their jurisdiction.
      Such a requirement would help NIWOPRR and FDA to target their oversight, to
      communicate more effectively and fully with IRBs, and, in the final analysis, offer
      improved protections to human subjects.




                                               21            OEI-Ol-97-00193   IRBS: A Time For Reform
COMMENTS                     ON THE               DRAFT                 REPORTS
    Within the Department of Health and Human Services (HHS), we received comments on 

    our four draft reports from the National Institutes of Health (NIH), the Food and Drug 1

    Administration (FDA), and, jointly, from the Assistant Secretary for Planning and 

    Evaluation (ASPE) and the Assistant Secretary for Health (ASH), who is also the 

    Surgeon General. We also solicited and received comments from the following external 

    organizations: the Applied Research Ethics National Association (ARENA), the 

    American Association of Medical Colleges (AAMC), the Consortium of Independent 

    Review Boards (CIRB), and Public Citizen’s Health Research Group. We include the 

    complete text of the detailed comments in appendix D. Below we summarize the major 

    comments and, in italics, offer our responses. 


NIH, FDA, and ASPE/ASH Comments
    The HHS parties responded in generally positive terms. They viewed the reports as
    raising important issues and recommendations warranting serious and widespread
    attention. The NIH urged that the final reports be sent to all 16 Federal agencies adhering
    to the common Federal regulations on human-subject protections; indicated that it will
    take our recommendations to the National Science and Technology Council, which is
    responsible for uniform implementation of the common Federal regulations; and
    suggested that our recommendations will be addressed at the FDA’s March 1999 National
    Forum on Human Subject Protections. The FDA expressed its intention to place some of
    the issues posed in the report on the agenda of the Forum. And ASPE/ASH suggested
    that all the reports be placed on the HHS website.

    Both NIH and FDA also offered comments on our specific recommendations calling for a
    revamping of NIH and FDA practices of overseeing IRBs. The NIH responded that our
    call for reorienting the assurance process so that it rests essentially on an institutional
    attestation to conform to IRB requirements was “well-taken.” It added that the OPRR has
    been seriously considering “a redirection of its intensive assurance effort toward
    performance-based reviews of IRBs.” The FDA, which has a long-established system of
    conducting compliance-oriented inspections of IRBs, responded with some caution to our
    call that the inspections focus less on narrow compliance matters and more on
    performance issues. The FDA indicated that it regarded the current inspection program as
    having “great value,” and that developing performance measures would be “a major
    challenge.”

    Finally, the FDA, as well as some of the subsequent commenters, pointed out that some
    of our recommendations, if enacted, could be “resource intensive” for IRBs and as a
    result could add to the stress on the IRB system. Such impact, it suggested, must be
    carefully considered.




                                             22            OEI-Ol-97-00193   IRBS: A Time For Reform
We appreciate the interest in using our reports to stimulate widespread discussion on
how the IRB system can be reformed to further human-subject protections.     We will
cooperate fully in such efforts. At the same time, we urge immediate attention to the
spectjic recommendations, such as those concerning information sharing, education, and
training, which can have important near-term effects in improving protections. We ought
not allow the needfor discussion to obscure the importance ofpractical actions that can
be taken immediately to address the vulnerabilities we present in our reports.

On the matter of revamping NI.OPRR and FDA oversight practices, we strongly urge
that both agencies give a priority to identtjying spectfic ways of conducting more
extensive and eflective performance assessments as part of their on-site reviews. We
recognize that for FDA this will involve a major departure porn a well-established
compliance approach that does help assure conformance with processes calledfor in
Federal regulations. But given the scope and signtficance of IRB responsibilities, it is
imperative, as the Institute of Medicine has indicated, to gain a better understanding of
how well IRBs are fulfilling their goals to represent the interests of human subjects. Over
time, this performance assessment could involve developing specific quantitative
measures that could be helpful in comparing the performance of different IRBs and of
individual IRBs over time. But the move to performance assessment should not await
such measures. Many practical steps can be taken in the near-term to help assess or
veriJL that IRBs are having their intended impact.

 We would be happy to workfurther with FDA and/or NIH to examine specific ways in
which their on-site reviews might focus more closely and effectively on results. Among
the key questions that should be addressed in any such effort would be the following:
How do we know that the informed consent process is carried out in a manner that
minimizes the possibility of coercion or undue influence? How do we know that the
process of recruiting and selecting human subjects is being carried out in an equitable
manner? How do we know tfprotocols that should be submittedfor review are not
submitted? Or ifapprovedprotocols     stray in ways that are not identtjied in paperwork
submitted to the IRB? These vital questions call for some kind of vertfication by Federal
parties as well as IRBs themselves. We ought not allow the quest to develop quantitative
performance measures delay practical steps that can be taken immediately.

Finally, FDA s point about the resource implications of our recommendations is a very
important one, warranting further deliberation.      We suggest that some of our
recommendations, such as those that relieve IRBs of some Federal procedural
requirements and of some of the burden of adverse action reviews, would help free up
resources. But we recognize that the “trust but verify” thrust we call for is likely to add
to resource needs as are other forces now being exerted. Most especially, theseforces
include a potentially sign&ant increase in Federal funding for research on cancer and
other serious diseases. They also include policy proposals to enhance IRB
responsibilities to protect individuals participating in genetic tests and to ensure
conzdentially of information obtained on human subjects. Thejeopardy that we suggest
exists now could well be exacerbated tfIRBs are not provided with sufficient resources to


                                        23            OEI-Ol-9740193   IRBS: A Time For Reform
    carry out the vital functions being entrusted to them. This matter, we believe, warrants
    serious attention in both the research and policy communities.


External Organizations’ Comments
    To varying degrees, the external parties supported many of our findings and 

    recommendations. But, overall, they reflected a number of strong concerns. Generally, 

    these concerns involved differences of substance and objections to our use of certain 

    language. 


    Overall, the substantive differences were wide ranging. Public Citizen found many of our 

    findings to be alarming and expressed concern that we failed to go far enough with our 

    investigations or recommendations. Among other things, it called for more funding of 

    IRBs, greater representation on IRBs of disinterested parties (including scientists) from 

    outside the institution, and FDA regulation of advertising seeking human subjects for 

    clinical trials. On the other hand, the ARENA and AAMC both expressed reservations 

    about our call for performance-focused evaluations and for more outside representation 

    on IRBs. Both also noted concern that a more active IRB role in conducting continuing 

    review could undermine the trust and collegiality that is key to the success of an IRB. 

    The AAMC added that our intent to insulate IRBs from conflicts with their parent 

    institutions “was improperly framed’ because “nothing could be more in the institutional 

    interest than protecting the subjects of research.” 


    The concerns about our use of certain terms and language, expressed by ARENA, 

    AAMC, and CIRB, were almost as strong as the ones about substance. The ARENA, in 

    particular, found our use of the term “IRB oversight” to be misleading because it 

    suggested IRB responsibilities greater than those the IRBs are mandated to carry out. 

    Further, both ARENA and AAMC raised concerns that some of our wording was 

    inappropriately alarmist and more encompassing than our methodology warranted. 


    In response to these concerns, we changed some of the terms and language we used in the 

    draft reports. Most notably, instead of referring to IRB “oversight, ” we referred to IRB 

    responsibilities and authorities to conduct “continuing review. ” We also modtjied some 

    statements in ways that we hope more clearly andprecisely express our findings and 

    concerns. We made these changes because we seek to focus attention and dialogue on 

    the important substantive matters revealed by our inquiry and on the needfor reform Cfor 

    which we believe there is widespread support). Our modtjications in no way lessen our 

    very real concern that the effectiveness of the IRB system, which has performed a 

    valuable protective function for many years, is now in jeopardy. Our wide-ranging data 

    gathering involving in-depth discussions and reviews in many different settings provides 

    us with a sound basis to present this warning. 


    On the substantive matters, we must underscore that tfIRBs are to meet the significant 

    challenges facing them in the years ahead, they must become more fully accountable to 



                                             24            OEI-Ol-9740193   IRBS: A Time For Reform
the public. For the system to be effective, trust in those conducting research must remain
an important part of the system. But, it must be accompanied by a greater readiness to
verify that IRBs are accomplishing their consumer protection mission. Such verification
is allowable under current Federal regulations and, in fact, consistentwith the intent of
the national commission in the 1970s that laid the groundworkfor those regulations. We
must also emphasize that in an increasingly commercialized research environment that is
much different than that which existed when the regulations were first established,
guarding against conflicts that in subtle ways could compromise the IRBs ’ role in
protecting human subjects is a matter of increasing urgency.




                                        25            OEI-Ol-9740193   IRBS: A Time For Reform
                                                                                        APPENDIX      A

                 Advertisiw          to Recruit Human Subiects

       When Federal human-subject protections were established in the 197Os, a key principle
       was that there should be clear distinctions between research and therapy. Subjects should
       participate in research out of a desire to contribute to generalizable knowledge and they
       should understand that any personal benefits were secondary. Central to their
       participation was an assurance that they understood the risks inherently involved in
       research; their signature on the informed consent document was meant to convey this
       understanding.

       Over the past two decades this distinction has increasingly blurred due to changes in
       subjects’ and the investigators’ perceptions. Many potential subjects have begun to view
       access to research as their best hope for effective therapy and do not want regulators
       inhibiting such access out of a desire to protect them. At the same time, the growth of
       multi-site trials increased the importance of recruiting large numbers of research subjects.
       This, in turn, created increased attention to marketing approaches to attract these potential
       subjects as researchers and their sponsors began to emphasize the personal benefits that
       human subjects could gain from participation in research. An effect of these changes has
       been that the line between research and therapy has become increasingly blurred. As the
       Advisory Committee on Human Radiation Experiments noted: “there is reason to worry
       that participants in research may have unrealistic expectations both about the possibility
       that they will personally benefit from participation and about the discomfort, pain, and
       suffering that sometimes accompany some research.” The committee further stated that
       “it is important that in the informed consent process, it is clearly communicated to the
       potential subject . . .that the primary intent of ‘research’ is to advance medical knowledge
       and not to advance the welfare of particular subjects.“’

       During the course of our inquiry, we identified and collected many advertisements
       seeking individuals to participate as human research subjects. These advertisements are
       readily accessible to potential subjects, being found in newspapers and on public
       transportation. In a few of these advertisements, even though the study’s experimental
       nature is mentioned, the accompanying language strongly implies that the procedure is
       treatment.* Even when this is not the case, the mention of research is either placed at the
       end of a long list of benefits or is embedded in language so enticing that the inevitable



       ’ Advisory Committee on Human Radiation Experiments, Final Report, Washington DC:
U.S. Government Printing Office, Chapter 18, Section 2 (1995).

        * It is important to note that research advertisements-are not substitutes for the informed
consent process. Participants must still sign an informed consent document after they contact the
researchers and agree to participate.


                                               A-l             OEI-Ol-97-00193   IRBS: A Time For Reform
risks of research are easily overlooked. The advertisements cite an overwhelming array
of these benefits (see accompanying box and photos at the end of this appendix). In only
one study did the advertisers
stress the voluntary nature
                                     Examples of Marketing Efforts Aimed at Recruiting
and not personal gain.                                   Human Subjects
Much more commonly, the
advertisements supported
the view that participation in                     DO YOU HAVE ASTHMA?
research was an opportunity
for the subject.                   If you qualifjr for any of our asthma studies, you can:
                                   - Learn to care for your asthma!
The danger of these                - Receive free medications!
advertisements is that             - Receive up to $1,730!
subjects may come to a
research study with
                                                     Women: Receive $2710!
misconceptions. For
example, a person may enter
                                   Healthy, non-smoking/drug-free women (20-40) needed
into research believing it         for USDA research study. Live-in 24 hrs/day for 78 days
will treat his or her
depression, panic disorder,
diabetes, etc. The allure of                            Speed or Cocaine?
freedom from such an
ailment is likely to be highly     Need help getting clean?
motivating. Persons may            Free Treatment & Medication.
also become attracted to           Repeat   Callers Welcome! ! ! Get Paid $$$
research participation by the
promise of alleviation from
                                                        Women With PMS
financial as well as physical
distress. They may be
                                   If you are between the ages of 18 and 40 and suffer from 

motivated by the promise of        PMS (Premenstrual Syndrome), you may qualify to 

free treatment, free               participate in a research study using an investigational 

screening, or extra money.         drug for the treatment of PMS. 

It is essential, therefore, that
both the informed consent          If you qualify to participate you will receive: 

document and the individual        Free Medical Exams                 Free Pap Smears 

involved in the recruitment        Free  Labwork                      Study Medications 

of subjects are vigilant in                 Up  to $455  for Time  and Travel
making sure the risks
involved in research are
clear. But as we have noted in this report, IRBs devote little attention to how the consent
process works, focusing all too often solely on the document’s language.




                                        A-2             OEI-Ol-97-00193   IRBS: A Time For Reform
The following two photos were taken on a Philadelphia subway car in January 1998.




               Photoscourtesy of the OIG Office of Evaluation and Inspections, Philadelphia Regional Office




                                               A-3               OEI-OI-97-00193   IRBS: A Time For Reform
                                                                                       APPENDIX B 


        Federal Requirements on IRB Continuing                                  Review
       Institutional review boards’ role in protecting human subjects does not end after the
       completion of an initial review. An IRB is responsible for reviewing, and has the
       authority to monitor, a research protocol from the time of approval onward--until the
       close of the study. The Department of Health and Human Services, through the auspices
       of both OPRR and FDA, has specific requirements concerning how this review should be
       conducted.’ These are specified in the regulations and elaborated on in various agency
       issuances such as OPRR’s “Dear Colleague” letters and FDA’s information sheets. The
       regulations are intended to be used as minimum requirements and IRBs are encouraged to
       impose greater protections as they see fit.

       The continuing review process is multifaceted and involves both an annual review by the
       IRB and the ongoing review of amendments, modifications, and adverse event reports as
       they are received. What follows is a brief description of the elements of this process.

Continuing   Review

       A continuing review must be completed at “intervals appropriate to the degree of risk, but 

       not less than once per year.“* This interval has been interpreted as no less than 12 months 

       from the date of initial review.3 The review must be completed by a convened board 

       unless the protocol qualifies for an expedited review process. The review should include 

       an assessment of the protocol and any amendments/modifications. A status report from 

       the investigator containing such information as the number of subjects accrued, 

       descriptions of any adverse events or withdrawals of subjects, new information pertaining 

       to the study and the current informed consent document should also be reviewed! In 

       particular, attention should be focused on determining whether the risk-benefit ratio 

       remains adequate based on the new information and/or risks that were discovered. 





       ’ 45 C.F.R., sec. 46 (HHS/OPRR) and 21 C.F.R., sec. 56 (FDA) 

       Currently, 16 other Federal departments and agencies abide by these regulations through 

       the Common Rule for the protection of human subjects in research, effective August 19, 

        1991. 


       * Ibid.

       30PRR “Dear Colleague Letter”, 10 January 1995, Continuing Review--Institutional           and
       Institutional Review Board Responsibilities.     -

       41bid, FDA Information Sheets, 1995.


                                              B-l             OEI-Ol-97-00193   IRBS: A Time For Reform
                                                                                        APPENDIX      B

Modifications   and Adverse Event Reports

       Periodically, the IRB may receive amendments/modifications for active protocols. They
       may include a change in address of a sponsor or something more significant such as a         ’
       change in the actual design of a protocol or eligibility requirements. The ongoing review
       of adverse-event reports is another integral and ongoing task for IRBs. An adverse event
       is generally defined by the FDA as a serious experience by a subject that was not
       previously anticipated in nature or severity. “Serious” events include anything fatal, life-
       threatening, permanently disabling, or requiring in-patient hospitalization. The
       requirements can be found in 21 C.F.R., section 312 (for drug research) and 21 C.F.R.,
       section 8 12 (for device research). They must be reviewed by the IRB or its
       representatives who can then require changes to the protocol. The required changes most
       often result in updating the informed consent document to more accurately explain risks
       to subjects.

Monitoring

       An IRB has the authority to directly observe (or require a third-party to observe) both the
       consent process or the actual research. 5 IRBs must also follow written procedures for
       determining which studies require verification from a source other than the investigator
       that no changes have occurred and for ensuring that any changes are not initiated without
       IRB review and approval.6




       5 45 C.F.R., sec. 46 (HHWOPRR)
         21 C.F.R., sec. 56 (FDA)
 v-
       6 Changes may be initiated before IRB approval if they are necessary to eliminate
immediate hazards to subjects. See Ibid.


                                               B-2             OEI-Ol-97-00193   IRBS: A Time For Reform
                                                                                     APPENDIX      C

                          Federal Oversight of IRBs

      An estimated 3,000-5,000 IRBs can be found across the country. Two agencies within
      HHS responsible for the oversight of IRBs: OPRR and FDA. Each agency has its own set
      of regulations which have many similarities. However, their processes for oversight are
      markedly different.

      The exact number of IRBs is unknown in part because of each agency’s relationships with
      IRBs. The OPRR becomes aware of IRBs after an assurance is submitted naming the
      IRB as its source of review. Under a single project assurance (see below), the IRB has
      already reviewed the protocol and only NIH funding is needed. The FDA’s contact with
      IRBs comes only at the time of an Investigational New Drug or Investigational Device
      Exemption application. By this time, the IRB has already reviewed and approved the
      protocol and the research is being conducted. Because the exact number is uncertain, the
      FDA acknowledges that it is more difficult to exercise their regulatory oversight.

Office for Protection from Research Risks (OPRR)
Assurances

      The OPRR’s oversight of IRBs focuses on an upfront assurance. The assurance is a
      document specifying an institution’s commitment to the human-subject protections
      specified in Federal regulations. It outlines the organization and purview of the IRB in
      addition to its processes for reviewing protocols and other procedural issues. Research
      funded by HHS can only be conducted at a facility holding an assurance with OPRR.
      There are three types of assurances:

      Multiple Project Assurances (MPAs): The MPA allows institutions to conduct any
      number of HHS-funded research projects for an initial period of three years after which it
      can be renewed for 5 year intervals. Regulations require the MPA only for HHS-funded
      efforts, but most of the nearly 450 MPA institutions have extended the protections to all
      research being conducted at their institutions. Though a minority of IRBs hold MPAs,
      these institutions account for nearly 75 percent of NIH-funded research.

      Single Project Assurances (SPAS): For those institutions that do not have the high
      volume of protocols necessary to support the use of an MPA, a single project assurance is
      used. For each project an institution wishes to conduct, it must apply for an SPA. This
      presents extra work for the institution as well as OPRR, who must not only review the
      institutional commitments to the IRB and human-subject protections, but also must
      review the research protocol and informed consent documents for each project assurance.
      Currently, there are approximately 3,000 active SPAS.



                                             C-l            OEI-Ol-97-00193   IRBS: A Time For Reform
                                                                                         APPENDIX      C

        Cooperative Project Assurances (CPAs): The I-II-IS funds approximately 25 

        cooperative groups which conduct thousands of clinical trials across the country. An 

        institution wishing to conduct any of the groups’ protocols that does not have an MPA can 

        apply for a cooperative project assurance. The CPA can then be used for any number of ’ 

        cooperative projects. Currently, there are approximately 1,500 CPAs. 


        The assurance application process is conducted entirely through document transmittals 

        and phone communication. An institution wishing to apply for an assurance can receive a 

        template from OPRR. After the institution tailors the template to its specific setting, it is 

        submitted to OPRR. There, assurance branch offtcers will review the document.’ Any 

        problems or suggestions are worked out through the institutional official(s) and the 

        assurance officer before an approval decision is made. 


        To ensure compliance, OPRR has the authority to limit, suspend, or withdraw an 

        institution’s assurance or require special reporting. 


Investigations

        Compliance investigations are another component of OPRR’s oversight. The OPRR
        conducts investigations primarily on the basis of subject complaints, after becoming
        aware of incidents that appear to have resulted from protection breakdowns or from
        referrals within the department found as a result of audits.8 The OPRR reports that the
        focus of the investigations has shifted in the past five years from micro-level to systemic
        solutions. There is no set investigational protocol as the corrective actions are prescribed
        according to the violation and the needs of the IRB. Since 1990, there have been 438
        investigations of which 360 are considered complete. However, the great majority of
        investigations occur through paper and phone communication. Only rarely does OPRR
        go on site. Between 1990 and April 1996, OPRR went on site to investigate compliance
        only 18 times. In fact, OPRR conducted only one such visit between April 1997 and May
         1998 because of staffing problems.’




        7For an SPA, the protocol and informed consent document must be reviewed as well as
the assurance template. The OPRR reports that it spends much more time on SPAS even though
more research projects and more subjects are involved under MPAs.

       ‘Less frequently, investigations are conducted as a result of suggestions from Congress or
the media.

        9 “Technical-assistance” site visits are also conducted. These visits are intended to be an
educational opportunity for IRBs and do not signal noncompliance. Between 1990 and April
1996, 13 such visits were completed.


                                                c-2             OEI-Ol-97-00193   IRBS: A Time For Reform
                                                                                        APPENDIX      C

Food and Drug Administration                  (FDA)
Inspections

       The FDA’s oversight of IRBs is one of many activities conducted in the process of
       evaluating the safety and effectiveness of the drugs, biologics, and devices it regulates.
       The goal of the monitoring process is to routinely inspect an IRB once every 5 years!’
       However, inspections can also be conducted as a part of the product-approval process or
       because of possible noncompliance. There are three centers within FDA that are
       responsible for conducting inspections: Center for Drug Evaluation and Research
       (CDER), Center for Device and Radiologic Health (CDRH), and the Center for Biologics
       Evaluation and Research (CBER). An inspection can be generated by any of the centers,
       but the inspections are carried out by the same group of FDA inspectors in regional
       offices across the country. The following table illustrates FY 1997 data for each of the
       three centers including the number of inspections and the number of official and
       voluntary actions indicated.’ ’




       The inspection guidelines focus on ensuring compliance through the review of IRB
       records and examination of written procedures. Another component of the inspection is
       the file review of at least three actual research studies approved by the IRB. The files are
       examined to determine such things as a timely continuing review, current consent
       documents were used, adverse-event reports were submitted and reviewed, and whether a


         lo This is difficult to achieve because of workload constraints; IRBs found previously to
be significantly deficient are re-inspected more often.

         “Actions taken are classified according to the strengthen of the action needed to correct
the deficiencies noted. “Official action indicated” (OAI) is the most serious and warrants FDA
action. “Voluntary action indicated” (VAI) signifies that the institution will correct the
deficiencies and often report their progress to FDA at regular intervals. “No action indicated”
(NAI) is used for inspections which do not reveal any significant deficiencies.


                                               c-3             031-01-97-00193   IRBS: A Time For Reform
                                                                                APPENDIX      C

quorum was present during the voting procedures. Based on the results of the inspection,
FDA has the authority to issue a ‘warning letter’ signifying serious deficiencies or enact
administrative sanctions.

Research investigators can also be inspected by FDA. Generally speaking, the inspections
are designed to ensure data integrity and ensure human-subject protections to the extent of
whether or not the informed consent document was signed and dated in a timely manner.




                                       c-4             OEI-Ol-97-00193   IRBS: A Time For Reform
                                                                               APPENDIX       D


DETAILED COMMENTS ON THE DRAFT REPORTS
    AND OIG RESPONSE TO THE COMMENTS
 In this appendix we present the full comments of all parties that responded to our four
 draft reports and our response to each set of comments. In order, the comments that we
 present in this appendix are from the following parties:

 l   The National Institutes of Health, U.S. Department of Health and Human Services

 l   The,Food and Drug Administration,   U.S. Department of Health and Human Services

 l Assistant Secretary for Planning and Evaluation and the Assistant Secretary for Health/
 Surgeon General, U.S. Department of Health and Human Services

 l   Public Citizen’s Health Research Group

 l   Applied Research Ethics National Association

 l   American Association of Medical Colleges

 l   Consortium of Independent Review Boards




                                         D-l           OEI-Ol-97-00193   IRRS: A Time For Reform
     DEPARTMENT       OF HEALTH 8r HUMAN SERVICES                                     Public   Health   Service


                                                                                      National Institutes of Health
                                                                                      Bethesda, Maryland 20892




Ms. June Gibbs Brown 

Inspector General 

U.S. Department of Health and Human Services 

Wilbur J. Cohen Building, Room 5250 

330 Independence Avenue, S.W. 

Washington, DC 20201 


Dear Ms. Brown: 


I am writing in response to your March 26, 1998 memorandum that provides four draft reports
on Institutional Review Boards (IRBs)’ for review and comment by the National Institutes of
Health (N&I).

The requirements for IRB membership, function, operations, review of research, and record
keeping are,described by the core regulations for Protection of Human Subjects of the
Department of Health and Human Services (DHHS) at Subpart A of Title 45 Code of Federal
Regulations Part 46. The regulations at Subpart A are the DHHS manifestation of a common
rule, the 1991 Federal Policy for the Protection of Human Subjects. In addition to DHHS, the
1991 Federal Policy is shared by sixteen other agencies.’ Because any proposal to revise
Subpart A of 45 CFR Part 46 would require consideration and concurrence by these 16 other
departments and agencies, we ask that you convey the final versions of the four reports to your
counterpart at each respective department and agency.

Also to further the broad appreciation of your recommendations, NIH will take your final
overview and recommendations to the Subcommittee on Human Subjects Research, Committee
on Science, National Science and Technology Council. The Subcommittee will have great
interest in your suggestions for any potential changes to the common 1991 Federal Policy for the
Protection of Human Subjects, as it is responsible for the uniform implementation of those
common regulations. This committee is chaired and staffed by the Office for Protection from
Research Risks (OPRR), in the NM. Because of OPRR’s authority in negotiating and approving
assurances of regulatory compliance for Federal-wide use, policy changes by OPRR of the sort



           ‘Institutional Review Boards: Their Role in OverseeingApproved Research(OEI-01-97-00190);
Institutional Review Boards: Promising Approaches(OEI-01-97-00191); Institutional Review Boards:The
Emergenceof Independent Boards (OEI-01-97-00192); Institutional Review Boards: A Systemin Jeopardy (OEI-
01-97-00193).
           ‘Agency for International Development; Central Ihtelligence Agency; ConsumerProduct Safety
Commission; Department of Agriculture; Departmentof Commerce;Departmentof Defense;Departmentof
Education; Department of Energy; Department of Housing and Urban Development; Departmentof Justice; Social
Security Administration; Department of Transportation; Departmentof VeteransAffairs; Environmental
Protection Agency; National Aeronautics and SpaceAdministration; and National ScienceFoundation.
Page 2 - Ms. June Gibbs Brown


contemplated in your reports are best not imposed unilaterally. Rather, such policy changes
need to be shaped by the departments and agencies that will be affected.

Your report makes many valuable suggestions about the role of increased education for scientists
and IRB members as well as the need for institutions to manage the process of IRB review with
an eye to the growing number and complexity of projects for their review. It would appear that
there could be streamlining in the processes from the Federal side and from the institutional side
as well. One area that may need further elaboration is the special challenges posed by multi-site
clinical trials. Many of the steps that you would recommend the IRBs take are already within
their authority to take; therefore, we expect that your report will prove useful to them as they
seek to strengthen their processes.

NIH has already taken some steps to bring improved understanding to one area - informed
consent. Last year we awarded 13 research grants to scientists who are studying informed
consent. In regard to the needs for education and training, we have issued two solicitations for
training initiatives in bioethics. One will provide post-doctoral training for individuals who seek
a concentrated training experience. The other will support short-term institutional awards to
make increased training in bioethics available to a larger number of scientists.

OPRR has increasingly made information that is useful to IRBs available on its website. OPRR
is committed to vigorous consultation with IRBs and institutional officials. This level of
consultation, for example, is instrumental in the development of meaningful performance
measures for IRBs--as called for in your reports. OPRR and the Food and Drug Administration
(FDA) are scheduled to meet with numerous IRB members and staff in regional conferences in
seven different U.S. cities. Furthermore, NM will participate in the FDA’s March 1999
National Forum on Human Subject Protection, at which the recommendations
                                                                     -__-      from your reports
- as well as other reviews of IRB functioning - will be a focus of discussion. We look forward
to that meeting as an opportunity to discuss with the IRB community some “best practices” in
areas of education, orientation, management and assessment of IRBs. Your report recommends
additional requirements to be placed on IRBs, but we hope to focus on the attainment of the
improvements rather than increased Federal regulations.

Your suggestion that the assurance process be reoriented so that it rests essentially on an
institutional attestation to conform to the IRB requirements set forth in DHHS regulations is
well-taken. OPRR has been seriously considering a redirection of its intensive assurance effort
toward performance-based reviews of IRBs. Please know that OPRR will not abandon its
current preemptive oversight procedures (i.e., negotiation of institutional assurances to comply)
before putting in place a next-generation, competency-based mechanism for assuring
compliance.

Twenty-four years after the initial promulgation of our Department’s rules for protection of
human subjects, your summary of the challenges today facing IRBs, and your recommendations
for DHHS oversight, form important additions to the evolving body of analysis of our system of
Page 3 - Ms. June Gibbs Brown


protecting human subjects in research. NIH appreciates both the opportunity to comment on
your evaluation, and your contribution to the ethical conduct of NM-sponsored research.

We would be willing to meet with your staff and discuss these comments.

                                           Sincerely,
                                                                               APPENDIX D 

                   OIG RESPONSE        TO NIH COMMENTS

We welcome NIH’s positive response to our reports and its readiness to use them to
stimulate widespread discussion of our findings and recommendations. Given that
several Federal departments and agencies share a common Federal policy on IRB
protections, we agree that it would be particularly important and useful to involve them in
considerations of our reports. We will send our final reports to each of the departments
and agencies.

At the same time, we must note that some of our recommendations have particular
relevance to NIH and involve matters that we believe warrant near-term action. These
include our recommendations that Data Safety Monitoring Boards be required for multi-
site trials that meet specified conditions and that these boards regularly provide to IRBs
feedback on developments concerning these trials. They also include our
recommendations concerning education and training of both investigators and IRB board
members. In these areas, we believe it is important to move quickly to spur developments
that can provide valuable support to IRBs as they review more and more research
proposals for NIH funding.

We recognize and support NIH’s interest in streamlining its review processes and in
reducing any unnecessary regulatory burden on IRBs and researchers generally. This is in
accord with encouragement offered in a House of Representatives committee report for
the 1998 NIH appropriations bill. It is also in accord with our recommendations to
eliminate or loosen some of the procedural requirements directed to IRBs and to revamp
the NIH institutional assurance process so that it rests essentially on an institutional
attestation to conform to the IRB requirements set forth in Federal regulations.

The NIH adds that it will not “abandon its current preemptive oversight procedures. . .
before putting in place a next-generation, competency-based mechanism for assuring
compliance.” We support this commitment and agree that a transition to a different
system of oversight must be carefully orchestrated. In this redirection, a major challenge
facing NIH and the IRBs themselves is to devote more continuing inquiry to developing
mechanisms that will help assure that the intended human-subject protections sought by
the IRB regulations are, in fact, being achieved. It was striking to us, during our own
review, how little inquiry of that kind now occurs. The NIH is well-positioned to provide
leadership and guidance in this important transition.

Finally, we note that the freed NIH resources that would result from the streamlining
process would offer an important opportunity for OPRR to become more proactive in
educating investigators and IRB members to become more knowledgeable about and
sensitized to human-subject protections. Such outreach could be of great value to IRBs
and could help in conveying a broader appreciation for the importance of ascertaining just
how well IRBs are achieving their mission.           -



                                       D-5            OEI-Ol-97-00193   IRIS& A Time For Reform
 DEPARTME~      OF HEAtTH    & l3umAN   SEEVI-                         Publlo Hwlth Service
                                                                                 .

                                                                       Food ati Drug Admkrktqtiqn
                                                                       Rockvillo Mb’ Z&fi7

                                                    May 11, 1998
To:           InspectorGenerai

From:         Lead Deputy Commissioner
Subject: 	    Comment6on the March 1998Draft Office of the InspectorGeneralReportson
              Institutional Review Boards
We appreciatethe opportunity to commenton the March 1998draft report6on Institutional
Review Board6(IRBs). We believe that thesereportsrepresenta thoughtful and detallcd
examinationof the IRB systemas well asthe rolesof the Federalandprivate sectorparties
involved in that system. We will carefully considerthe findings, recommendations,and
supporting information containedin thesereports, which provide valuableinformation that will
needto be consideredby FDA in collaborationwith NIH, other federal agencies,andthe
researchcommunity.

While we agreewith the reports’ conclusionthat the IRB systemis stressed,we arc pleased
that the reportsdescribedhow many IN38 havefound successfulandcreativemeasuresto deal
with this stress. The reportsshould be particularly helpful to that portion of the IRB
community still struggling with someof the problemsdescribedin the reports.

We note that 6omeof the recommendationswhich could increasethe protection6provided to
researchsubject6alSO could be very rcsourc:e‘mtensivefor IRBs, clinical investigators,and
federal agenciesandcould, if implcment~ asrequirements,increasethe amountof stresson
the IRE3system. We believethat it is, thc?fore, very Important to considerthe impact of each
recommendationnot only in termsof its impacton the proteclion of researchsubject6but also
in terms of burdenon the system.

In commentingon our complianceactivities asthey relate to IRB inspections,the reports
recommendshifting to an approachof measuringeffectiveness. We considerthe current FDA
inspectionprogram to havegreat value, and think that establishmentof effectivenessmeasures
would bc a major challenge, This is a very complexissue,and WCseethe ricedfor a thorough
exploration of the possibilities in advanceof any decisions.

WCrecognizethat thereare significant challengesfacing the IRB system. Your reports
highlisht and add 6UppOIt to a number of areaswhere we believechangemay be needed(e.g.,
a registration requirementfor IREiswould, amongother things, enhanceour abilities to
provide educationalmatorialsto all IRE3s).We look forward to receiving the final reportsand
to working with our federalandprivate sectorcolleaguesin further improving the efftciency
and effectivenessof the IRE3systom. We anticipateintensediscussionof a number of the
recommendationsby the researchcommunity at IRB andclinical investigatormeetingsandwe
       ,
.’ .




           pnge   -   2



           intend to place someof theseissueson the agendafor our annualnational conferenceon
           humansubjectprotection to be held March 5,1999.
           I have attacheda number of specific commtn$sthat we hopeyou will considerbefore
           publishing your reports. Again, thank you for providing us the opportunity LOcorrqncnton
           thesedraft reports.

                                                      rnos3n’~L
                                                     Michael A. Friedman, M.D.

           Attachment: Specific comments
I   -





         Attachment
                             FDA’s Specific Comments on OIG Draft Reports on IRBs



            .’
         mlonal   .
                       Review Boards; T&i&&         in   Ov~~~~roved        Research

         (pg ii) Heightened Workload    Pressures

                         Inclusion of numbers to support statements about workload would highlight the
                         magnitude of the problem.

                  Limited feedback on FDA Actions Against Investigators

                         Last line: Insert “routinely” after %om” to read “precluded from routinely”

         (pg iii) FDA Oversight Focuses on Inspections...

                         “The FDA conducted just over ZOOsite visits in 1997.”

                         FoIlow this statement with the number of IRBs (3,000-5,000). FDA conducts
                       ’ inspections of lRBs, while OPRR conducts site visits,

         (pg 3) Where Are They Located7

                         “An estimated 3,000-5,000 IRRs can be found across the country.”

                         It should be noted that the uncertainty in the number of IRBs subject to the
                         regulatory oversight by Federal agencies is part of the problem in exercising that
                         oversight.

         (pg 4) The Limits of Informed Consent

                         “They may not reaiize that the primary mission of the research is 

                         to advance medical knowledge rather than the welfare of the subjects.” 


                         This could be misinterpreted to mean that the research is being conducted 

                         in violation of the Declaration of Helsinki 121CFR 312.120(c)(4)]. , 

                         It may be clearer to state: “They may not rcaliee they are being 

                         asked to participate in an experiment rather than being offered an 

                         approved medical treatment of known safety and efficacy.” This point is 

                         made in the section immcdiately,following, titled “The Blurring of 

                         Research and Treutnient”. .        8



                                                             -l-
(pg 9) Limited Feedback on FDA Actions Taken Against Investigators

                 Line beginning “purged”: Change to read “purged of trade secret and confidential
                 commercial information, and ...”

                 Next sentence: Change “inspectors” to “inspections”

                 Last line: Insert “with IRBs and sponsors” after “ information”
                            .
               Review Baards..Promisinn

(pg 8) Promising Approaches

                 The meaning of the last sentence of the first paragraph could be improved if
                 “howcvcr, as” were changed to “because each”

(pg 15) Federal Reference Points

                   The last sentence should clearly state that “FDA information sheets” is a set of
               * 	 documcnta. The proper citation for these sheets is “FDA Information Sheets for
                   IRBs and Clinical Investigators”

 Jostitutis&    Review

 (pg ii) Independent IRBs Offer Advantages That Institutional IRBs Find Hard to Match

                  Third paragraph may be strengthened by a description of what is meant by “single
                  souw of review.” While it is true that the IRB would be the only review board
                  for all sites it la also true that the board would have to review the protocol for each
                  Individual site that wants to conduct the study, For each submission the lRB
                  would want to discuss the needs of the individual community (ethnic groups in the
                  community, research subjects available in each community, cnsul’c that the
                  protocol can be conducted in each community, etc.) before approving the protocol
                  for that community.


  (pg iii) Conclusion

                   Last sentence in the second paragraph. Change “At the same, . . . ” to “At the
                   same time, * a.”




                                                    -2-
(Pg 4) While There am Relatively Few of Them, Their Number has been Growing

               Although the report recognizes the growth of independent IRBs, the report does
               not provide a reason for their tormation. We suggest that the mason for more
               independent IRBs stems from’s change in FDA’s lcgulutions in 1981. lqrior to
                1981, FDA required IRB review of studies involving institutionalid      subjects or
               studies conducted in an institution accepting responsibility for the study (e.g., what
               would now be considered an institution with a multiple project assurance of
               compliance with HHS). In 1981, FDA expanded the scope of its IRB. tegulations
               to include a requircmcnt for IRB review of studies conducted outside of an
               institution (e.g., by private practitioners). In making this change, FDA explained
               its rationale: human subje+s, whether institutionalized or not, aw entitled to the
               protections that these rcgu!atidns offer, The agency rccogniztd th$ in,somc
                instances such physicians may not be affiliated with an institution or have direct
                accessto an IRB. In the preamble to the regulations, the agency dc+c@bedthree
               options available to these physicians: request review of a sludy from an existing
                IRB, request rcvicw from an IRB crtaicd under the auspices of a local or State
                government, institution, society, foundation, or organization, or use an IRB
                created by the sponsor. Inflcpcndent IRBs WCIXcreated to fill this void and fulfill
                the 1981 r~uircment for LRQ+vI~w of all studies involving FDA regulated
                p1@lcts.                   , ’

   .   .                     .
In.Ftltutlonal Review Born

(pg 13) Recommendation 2.a

               The report should note that there is one regulation which requires the
               establishment of an indepcndcrit dath monitoring committee. The FDA regulation
               that provides for an cxcepiion from the informed consent requhtments in certain
               cmergtncy research (21 CFR 50.24) quires that a study conducted under the
               exception have establishe! an iindependentdata safety monitoring bovardto review
               data during the study in order to exercise oversight of the study.




                                                -3-
                                                                               APPENDIX      D

                   OIG RESPONSE TO FDA COMMENTS

We appreciate FDA’s commitment to carefully consider the findings, recommendations,
and supporting information presented in our reports and to place some of the issues we
raise on the agenda of the annual national conference on human-subject protections to be
held in March 1999. Such deliberations can be of great importance in fostering the
follow-through that we hope will occur as a result of our inquiry.

As we suggested in our response to NIH, however, we believe it is important to link this
longer term deliberation with some near-term actions that can begin to address
vulnerabilities we point out in our report. With respect to FDA, we particularly urge
near-term action in ensuring that it routinely provide IRBs with feedback on any actions it
takes against investigators under the jurisdiction of IRBs. If IRBs are to carry out their
protective role adequately, it is essential, we believe, for them to be fully informed on
such matters. Further, we urge FDA to begin examining how it can incorporate a more
results-oriented focus into its on-site inspection process.

In making this recommendation to FDA, we do not intend to discredit the compliance-
oriented inspection process that it has established. We recognize the contributions that
process has made and that it helps to ensure that IRB processes conform to the letter of
the law. Yet, we strongly suggest that the increasingly results-oriented approach that has
come to characterize health care quality assurance/improvement efforts also has
applicability for both IRBs and Federal bodies overseeing their performance. It is
especially important that FDA take initiative in refocusing Federal oversight because, at
least at the present time, it has more on-site IRB presence than any other HHS entity.

 To focus more on how well IRBs are actually protecting human subjects, it would be
 helpful to develop specific measures of IRB performance. This, we recognize, is a
 complex undertaking that should involve other Federal agencies and the IRB community.
 But progress in developing more performance-based reviews should not be dependent on
just such measures. There is much that FDA can and should do in the near-term to help it
 assess more fully how well IRBs are protecting human subjects.

We would be happy to work with FDA to identify ways in which they might focus their
oversight more closely and effectively on results. Among the key questions that could
guide this process are the following: How do we know that the informed consent process
is carried out in a manner that minimizes the possibility of coercion or undue influence?
How do we know that the process of recruiting and selecting human subjects is being
carried out in an equitable manner ? How do we know if protocols that should be
subjected to review are not being submitted for review? How do we know if protocols
stray from the directions set forth in the paperwork reviewed by an IRB? The FDA can
begin to obtain better answers to such questions through selected reviews at actual
research sites, through interviews with human subjects themselves, through different lines
of inquiry with IRB staff and board members, and through other methods.


                                      D- 11           OEI-Ol-97-00193   IRBS: A Time For Reform
    DEPARTMENT       OF HEALTH & HUMAN        SERVICES 	                      DffkOOfthOSeast#y



                                                                              W8rhiwton. 0.6. 20201




TO: 	          Juiie Gibbs Brown
               InspectorGeneral‘.      .
FROM: 	        Assistant Stcrctary for Planning and Evaluation
               Assistant Secretaryfor Health and SurgeonGeneral

SUBJECT:       Coinmcnts on the Four Draft Reports on Institutional Review Boards


Thank you very much for the opportunity to review andprovide comments on the four draft OIG
reports on institutional review boards (IRBs). We appreciatethe amount of workand effort that
your staff has devoted to preparing thesereports. It showsnot only in their understanding of the
organization and functions ofinstitutional review boardsbut also in the nature of the
recommendationsthat have beenproposed.

Your principal Ending that the IRB system is experiencingsignificant vulnerabilities is an issue
that we do take seriously.’ Inasmuch asthis system is responsiblefor protecting human subjects
involved in researchfunded or conductedby the F&ml Government,we rely on it to safeguard
the rights and interestsof all thosewho participate assubjectsof suchresearch We appreciate
your recognition of the hundredsof diligent and conscientiousIRB members, s-and principal
investigators who are strongly committed to the protection of human subjectsand who labor
towards this cnd’in lessthan ideal circumstances.

Your observationsregarding the current stresseson the systemarewelltake&; and it is certain
that, absentstrengthening and corrective measures,suchpressureswillincrease as a result of a
likely growth in the number and complexity of clinical trials, including trials to evaluateand
validate genetic tests and trials of xenotranplantation them&

 We also recognize that institutions at which IRBs resideare our partnersin this system to protect
 human subjects. Thus we have a responsibility to shamwith them the findings that your office
 hasmade and to engagethem further in strengtheningthe IRB system. To this end, we hope you
 will make the final reports available on the DHHS.website.




                                                             David Satcher,M.D., Ph.D.
                                                                                APPENDIX      D

               OIG RESPONSE TO ASPE/ASH              COMMENTS

The ASPE and ASH stress the role of 1RB.s as safeguards and agree that they face
vulnerabilities that must be taken seriously. We applaud their further comment that
without “strengthening and corrective measures” the pressures on IRE&sare likely to
intensify. Our recommendations are offered to mitigate those pressures and shore up
IRBs for the vital roles they will continue to play.

We particularly welcome the interest of ASPE and ASH in these issues because their
broad, department-wide focus on the functioning of IRBs can be enormously important in
moving forward with the kind of reforms we urge. As we note in this overview report,
the primary HHS agencies responsible for oversight of Irks, NIH and FDA, have very
different jurisdictions, mandates, and operating approaches. If they are to respond
effectively to the warning we present, they will have to collaborate. It would appear that
ASPE and ASH could play an important role in ensuring that such collaboration goes
beyond surface-level efforts to substantive interactions that address the seriousness of the
current situation.




                                       D- 13           OEI-Ol-97-00193   IRBS: A Time For Reform
                 Comments  by Sidney M. Wolfe, MD and Peter Lurie, MD, MPH
                          Public Citizen’s Health Research Group
  Concerning       the HHS Inspector General Reports      on Institutional Review              Boards
                                    (GEI-OI-97-0019-f-93)

         Since these reports find that “the System,” referring to Institutional Review
Boards (IRBs), is “in jeopardy,” it is clear to us that the health and safety of thousands
of human experimental subjects are also in jeopardy since the protection of people in
these experiments is the most important function of the IRB system. Although these
reports conclude that there are not “widespread abuses of human research subjects,”
the increasingly large number of violations found by FDA investigators in IRB-approved
informed consent documents, the dangerous lack of on-site inspections for HHS-
funded researcti by NIH’s Office of Protection from Research Risks (OPRR), the rise of
for-profit IRBs-much of whose work is to monitor research done by for-profit clinical
trials companies-and many other problems documented in these reports belie the
conclusion of “no widespread abuse.” This conclusion seems particularly inappropriate
as no systematic search for abuses was conducted nor were known abuses examined.

The most alarmina           findinas   of the Inspector    General’s   Reports   are:

1. Unsafe workload          of IRBs: According to the Inspector General’s Report, “at the sites 

we visited, the [IRB] meetings typically lasted about 2 1Xhours and included an average 

of 18 initial [research proposal] reviews, 9 expedited reviews, 43 protocol amendments, 

and 21 adverse event reports.” The report cites other studies finding that the average 

academic medical center IRB was reviewing 297 proposals a year. It is clear that 

adequate time is not being devoted to this difficult task. Worse, there is “minimal” 

attention spent by the IRBs on monitoring the research after it has begun to see if the 

study’s conduct is consistent with the approved protocols. 


2. Massive    number of informed consent violations:       According to the report, the FDA 

annually does site visits to only about 200 of the 1,500 to 1,700 IRBs involved in 

overseeing research which includes FDA-regulated products. These investigations are 

mainly not done for cause and therefore it can be assumed that the sites inspected in a 

given year are representative of the larger universe of IRBs. In FY1997, there were a 

total of 74 informed consent deficiencies found at the 210 IRBs visited. Since 210 is 

210/l ,500 or only 14% of all of the IRBs, it is reasonable to project that in 1997 there 

were a total of 528 informed consent deficiencies (74/14%). Of the inspection findings 

deemed by FDA to be “most serious”, there were 8 in FY 97 among the 210 IRBs 

inspected which projects to a total of 56 for the whole country in that one year alone. 


3. 	Misleading     advertisements       to recruit   patients   to join experiments:    60 

newspaper or public transportation advertisements were examined to estimate the 

extent to which the line between treatment and research was being blurred. People are 


                                                      1
lured into experiments by emphasizing treatment instead of research: “the mention of
research is either placed at the end of a long list of benefits or is embedded in language
so enticing that the inevitable risks of research are easily overlooked....The danger of
these advertisements is that subjects may come to a research study with
misconceptions.... They may be motivated by the promise of free treatment, free
screening or extra money.” One ad illustrating this stated: “Do you have asthma? If you
qualify for any of our asthma studies, you can: learn to care for your asthma, receive
free medication, receive up to $1,730!”

4. 	New conflict    of interest     problems     with “Independent”   (For-profit)   IRBs: Because
a progressively larger fraction of research undertaken in order to get drugs and medical
devices approved is done by for-profit drug and device testing companies which are not
part of university medical centers, there has been a proliferation of “independent” IRBs
to service them. Although they are “independent” of an academic research institution,
as for-profit entities they are quite dependent on pleasing their customers (the for-profit
research companies) and their owners. The Inspector General study found that “some
IRB officials are concerned that an independent, for-profit IRB might compromise its
revievu-process to advance the financial well-being of the firm. Such concerns are
heightened’td-the extent that corporate-equity owners or employees serve on the IRB
review boards and are sustained to some extent by the fact that reviewers are paid for
their services.” An additional problem involves the fact that most of these are
nationwide and therefore do not have local representation and input from the localities
where the trials are being conducted.

5. Inadequate      oversight      of IRBs by FDA or OPRR: As mentioned above, only 210
out of 1,500 to 1,700 IRBS which review studies involving FDA-regulated products are
inspected by the FDA in a given year: Thus, it may be five or more years between
inspections, during which hundreds or more studies will have been approved by the IRB
with no on-site oversight. OPRR does even fewer on-site inspections of IRB monitoring
functions, mainly employing phone and paper investigations. “Only rarely does OPRR
go on-site. Between 1990 and April 1996, OPRR conducted only 18 compliance
visits...[there were] no on-site visits between April 1997 and February 1998 because of
staffing problems.” Thus, with thousands of NIH-funded human experiments being
monitored by IRBs, there is dangerously little oversight by the OPRR which is, in
another example of conflict of interest, part of NIH.

6. Little evaluation     of real effectiveness       of IRBs: According to the Inspector
General’s Report, “officials [of IRBs] reported that during the past year they seldom
visited the research site. Although many would like to, none oversees the informed
consent process or solicits feedback from subjects.” One IRB member said “he reviews
the continuing review summaries during the board meeting to see if a patient has died.
If no patient has died, then he generally will not raise questions.”


                                                     2
Inadequacies    of lnsoector       General   lnvestiaations

       There is an enormous amount of important information and recommendations in
these reports but there are two areas of investigation which would have been useful to
include:

1. Failure to interview       subjects   of human              Since IRBs themselves do
                                                        experiments:
not find out if informed consent was really obtained (see #6 above), relying on a review
of the document content instead of finding out if patients actually understand the nature
of the experiment in which they agreed to participate, it would have been useful to
interview a representative sample of patients in trials, particularly those who had
finished trials.

2. Failure to assess differences    between boards based on review of a
standardized   protocol or to collect data on differences     between IRBs in rejection
rates or rates of requiring serious modifications     in protocols:  In the United
Kingdom, studies have shown that ethical review committees, the equivalent of IRBs,
differ greatly inthe way they approach and criticize a standardized protocol. Rather
than collecting such systematic-data, the Inspector General reports depend primarily on
site visits and qualitative information. Such data would be very instructive in better
training and education of IRB members. Data examining the extent to which the rate of
rejection or serious modification of studies reviewed by IRBs differed from one IRB to
the next might focus on conflicts of interest or other problems with the training and
education of IRB members. It would also set standards by which IRBs could be
objectively compared.

Reco
?tlonsde   enda ’         e                         by the Insp ector Genera I

1. Funding for more adequate review by IRBs: This should be done as an automatic
predetermined portion of academic overhead for clinical trials. In other words, since
academic centers are getting funded to do the trials, a sufficient portion of this overhead
should go to assuring that a much more rigorous review of the research, initially and
while the trial is underway, is done.

2. 	Change in composition     of IRBs including much more attention to conflicts of
interest, especially at for-profit IRBs: Despite recommendations dating back 25
years that scientists from outside the institution and non-health professional lay persons
should be included in IRBs,’ this need, especially the outside scientist element, is not
being adequately addressed. Given the strong institutional bias to say yes to the


       I
             Barber B, Lally JA, Makarushka JL, Sullivan D. Research on Human
Subjects. Russell Sage Foundation, New York. 1973.
                                                    3
possible flow of money, it is particularly important to temper the institutional enthusiasm
with these more disinterested parties.

         The idea of a for-profit IRB is appalling. It is one thing for a loyal academic to say
yes to a research proposal which will benefit his or her institution but another for the
IRB member, possibly an executive or a major stockholder in the IRB, to personally
gain from approving research proposals. The policy for HHS-funded research reviews
by for-profit IRBs is to exclude IRB equity owners from participating in the review
process, but there is no such policy for industry-sponsored studies which are to be
submitted to the FDA. If it is not possible to abolish for-profit IRBs, at least this extreme
conflict of interest for the approval of studies of drugs, devices and other FDA-
regulated products should be ended. This conflict of interest also facilitates the
phenomenon of IRB-shopping, in which sponsors take a protocol rejected at one IRB
(perhaps a University IRB as in a recent case mentioned in congressional testimony 2,
and take it instead to a for-profit IRB which has every incentive to approve the protocol
lest it gain a reputation as “too strict” and therefore lose business.

3. 	Refjulatjon-by   the FDA   of advertising      done by clinical     trials   units: As discussed
under finding #3 above, patients can easily be lured into participating in human
experiments by the misleading advertising discussed in the Inspector General’s Report.
The FDA should expand its’ regulation of IRBs to include the recruiting materials such
as advertisements and these materials should also be part of the materials received by
the IRBs. Combined with misleading information in the informed consent forms, the
result may be for patients to participate in an experiment without adequate informed
consent.

4. 	Requirements for a central registry of all trials and that the results of all trials
be made public within one year of completion.        In a recent article entitled, Are
Research Ethics Committees Behaving Unethically? Some Suggestions for Improving
Performance and Accountabilify,  British researchers concluded that the committees
were behaving unethically “by endorsing new research which is unnecessary and by
acquiescing in biased underreporting of research which they have approved.” 3 They
concluded that-research ethics committees should:



        2
                 Wilfond B. Testimony before the House Subcommittee on Human
Resources, Committee on Government              Reform and Oversight,      U.S. House of
Representatives, May 8, 1997.
        3
            Savulescu J, Chalmers I, Blunt J. Are research ethics committees
behaving unethically? Some suggestions for improving performance and accountability.
British Med J 1996; 313: 1390-3.

                                                   4
a/ Require systematic reviews of existing research before approving research;
b/ Require that a summary of relevant systematic reviews be made available to
potential participants;

c/ Require registration of clinical trials at inception as a condition of approval [national
registry];

d/ Require a commitment by investigators to make the results publicly accessible as a
condition of approval; and

e/ Audit the reporting of results of research previously approved by them. (IRB
monitoring of publication is critical to avoid publication bias or .debacles such as Knoll
Pharmaceutical’s suppression of the levothyroxine equivalency study.‘)

5. Analysis   of close votes at lRBs to see if and why those protocols              got approved.

6. Retrospective    analyses    of IRB meetings         which   approved   trials now considered
unethical.
       c    I .I
7. Remove: OPRR from NIH because           of conflict             As long as OPRR is part
                                                            of interest:
of the institutional block diagram and under the control of the NIH, over whose research
it is supposed to exert independent control, it is highly unlikely that it will be able to fulfill
its important mission. It should be .moved outside of the NIH but still within HHS.

8. Implementing     as mandatory for lRBs some of the strategies discussed    in
lnstifutional  Review Boards: Promising Approaches     (0E1101097-00190)   : With the
growing number of research applications, it seems reasonable at the present time to
put a limit on the number of applications a given IRB can review per year. iRBs should
also be required to provide some educational outreach to faculty and students, at a
minimum including a lecture series on ethics, including lectures on recent controversies
and new directions in ethics. We were particularly impressed with the
computer-assisted monitoring of research activity at the University of California, San
Diego which detemrined that fully 10% of recent publications by faculty members had
not received IRB approval; this monitoring function, which is rapid and inexpensive,
should also be made mandatory. Periodic informed consent audits by third parties, as
conducted at the University of Texas Health Sciences Center, should also be required,
as should the presence of a bioethicist on the IRB.




                                                    :
       4
               Rennie 0. Thyroid storm. JAMA 1997; 277:1238-43.
                                                5
                                                                                  APPENDIX       D

           OIG RESPONSE TO PUBLIC              CITIZEN      COMMENTS

Public Citizen incorrectly states that we concluded that there are no widespread abuses of
human subjects. Our concluding assessment on this point was that “we do not claim
there are widespread abuses” of such subjects. We made that point to place our main
finding about the jeopardy that exists in context and to try to avoid overly alarmist
reactions to it. As Public Citizen correctly indicates, in this study we did not conduct a
systematic search for abuses, nor did we investigate known abuses. Rather, our focus was
on the big picture. We sought to bring greater clarity and understanding to the overall
system of protections that exist in a varied and rapidly changing environment.

Concerned about the seriousness of our findings, Public Citizen regrets that we did not go
further with our review. In particular, it suggests that it would have been useful to have
interviewed human subjects themselves and to have used a standardized protocol as a way
to assess differences among IRE&. We agree that both of these techniques could have
value. However, we were unable to incorporate them as part of our review. We amended
our report to indicate that such techniques should be considered as part of the regular
performance-focused evaluations of IRE3sthat we recommend.

Public Citizen also offers a number of recommendations beyond those that we presented
in the report. They are thoughtful recommendations that warrant careful consideration by
the policy and research communities. In two cases, our own consideration of them led us
to make some changes in the text. In our recommendation calling for more
noninstitutional members on IRE&., we clarified that such members could well include
scientists from outside the institution. In our findings and recommendations concerning
conflict of interest, we clarified that while equity owners are precluded from participating
in the review process for studies under NIH purview, they are not precluded from doing
so for those just under FDA’s jurisdiction. We added a recommendation specifying that
such participation should be disallowed in all cases involving NIH or FDA jurisdiction.
At the very least, the involvement of equity owners of IRE& in reviewing research
protocols undermines the public credibility of what should be an independent review.

Public Citizen’s comments about the importance of proper funding parallel those of FDA
and other parties. They are well-taken. We reinforce this concern in the introduction to
our recommendations when we note that “sufficient financial provisions” must be made
to buttress IRE3and Federal efforts to protect human subjects.”

Finally, we also take note of Public Citizen’s call for FDA regulation of advertising done
by clinical trials units. While we are not ready at this point to make such a
recommendation, we do have considerable concern, as we indicate in the reports, that
such advertising is currently being used in ways that give potential subjects an unbalanced
perspective of the risks and benefits of participating in research and that both IRE3
continuing review processes and Federal oversight processes fail to give sufficient
attention to this matter.


                                       D- 19             OEI-01-97-00193   IRBS: A Time For Reform
             May 12, 1998 



             June Gibbs Brown, Inspector General 

             Department of Health & Human Services 

             Office of the Inspector General/Office of Evaluations and Inspections 

             Room 5458 Kohen Bldg. 

             Washington, D.C. 20201 



             Dear Dr. Brown: 


            Than& you for giving the Applied Research Ethics National Association (ARENA) the 

            opportunity to:comment on the four draft inspection reports (OEI-Ol -97-00190,OO 19 1,00192, 

            00 193) on the Institutional Review Board (IRB) system. ARENA is a subsidiary of the Public 

            Responsibility in Medicine and Research (PRIM&R), which is a nonprofit organization 

            dedicated to promoting the ethical conduct of research. ARENA is a professional association 

            with over 800 members who are administrators or members of Institutional Review Boards and 

            Institutional Animal Care and Use Committees throughout the United States. ARENA’s 

            membership is in part dedicated to the protection of human research subjects and compliance 

            with federal regulations governing IRB operations and informed consent. 


            ARENA applauds your efforts to address the complex research culture in which IRBs currently 

            function. The inspection report entitled “Institutional Review Boards: Promising Approaches” 

            provides excellent examples of innovative IRB strategies for enhancing effectiveness and 

            efficiency in protecting human subjects. This report illustrates that many IRBs have developed 

            creative and effective approaches to managing the challenges presented by the changing research 

            environment. 


            We support the recommendations delineated in the summary report (OEI-0 l-97-001 93) but have 

            general concerns about the four reports’ findings. The general concerns and our specific 

            comments on the recommendations are discussed below. 


            GENEIWL         CONCERNS

            Use of the phrase “FRB oversight” is not appropriate and is misleading to readers      who do
            not have IRB expertise. This phrase has been confused with the mandated charge of     IRBs to
            conduct continuing review, review of unanticipated problems, and review of proposed    changes in
            approved research. IRBs are not man&ted to conduct data monitoring or daily quality    assurance



132 BOYLSTON STREET
BOSTON. MASSACHUSmS         021 f6
61742ZJ-4112 phone: 617423-l 165 fax
--- -- - - -. mn., _ .-.“,,
of research procedures carried out under approved protocols, as the phrase “oversight” clearly 

implies. The responsibility for oversight and safety monitoring rests with federal regulatory 

agencies, sponsors, and Data Safety Monitoring Boards. The phrase should not be used in the 

headings, subtitles, or the narrative of the four reports because it does not accurately refer to the 

IRB mandate for continuing review. 


The uglobal” language used in the title, the introductory text and the subtitles found in the 

OEI-Ol-97-00193 and OEI-01-97-00190 is very problematic. The general public, 

congressional leaders, and anyone who does not read the report in detail may be left with a 

blanket condemnation of the IRB system. Based on our assessment of the methodology used in 

conducting the OIG inspection, global generalizations which appear alarmist need to be avoided. 

The OIG sample was small and the study used qualitative interviews, not quantitative measures 

to determine I&B effectiveness. Although the reports acknowledge the limitations in the 

methodology and appropriately point to strengths in the system, these limitations are lost amid 

global statements like “rarely does, ” “the little review that does occur.. .,” and “few IRBs seem 

to be able.. .” 


For example, in OEI-0 l-97-00 193 the OIG refers to a prior study that focused on investigational 

medical deviees in which significant deviations from IRB approved procedures were identified. 

The report goes on to state “in this study, which was more broadly based, we found little basis 

for easing those concerns; in fact, they have been intensified.” A representative from one of the 

six academic health science centers site-visited, who also reviewed these draft reports, was 

troubled by this sweeping statement. That person pointed out that during the three day OIG site-

visit the OIG did not review any specific protocol. It is therefore difficult to understand why the 

OIG would conclude that deviations from a specific IRB can be applied to a more broad based 

look at IRBs and ascertain there is a widespread problem. 


Another general concern is that it is unclear in the report on continuing review and the 

summary report whether the findings and recommendations apply only to selected 

segments of the IRB community or whether they apply to the entire community of IRBs 

including independent boards. As currently written, it appears that OEI-0 l-97-00 190 findings 

and recommendations only apply to institutional IRBs. There is no mention in the methodology 

section of the continuing review report that 11 independent IRBs were also interviewed. There is 

no discussion of the continuing review topic included in the report on independent boards. Also, 

in the methodology section of the summary report, there is no mention of interviews with 

independent board representatives. However; some of the findings appear to include 

independent boards; others do not. 


SUMMARY REPORT RECOMMENDATIONS

As indicated above, in general ARENA supports the recommendations in the summary report.
However, we do have some specific concerns, which are included in the following discussion.
Recommendation 1: Recast Federal IRB Requirements so That They Grant IRBs Greater
Flexibility and Hold Them More Accountable for Results

ARENA agrees that IRB effectiveness would be greatly improved if the federal policies that
focus upon “paper trail” aspects of IRB operations or perfunctory review processes were
eliminated or recast. For example, in two of the reports it is stated that ongoing review of
adverse event reports is an integral and ongoing task for IRBs. An argument can be made that
monitoring for adverse events is actually a Food and Drug Administration (FDA) and sponsor
function that has over time been delegated to the IRB through FDA policy and procedures rather
than regulatory mandate. The Department of Health and Human Services (DHHS) and FDA
IRB regulations do not specifically address adverse event monitoring responsibilities. ARENA
acknowledges that IRBs have a role in reviewing adverse events, but the scope of that role is
subject to debate. In accord with regulatory requirements, all adverse event reports are sent to
the FDA. FDA, with trained scientific reviewers, is in the position to evaluate the reports and
determine if risks for a test article have changed. The FDA could transmit this information to
sponsors and IRBs if the recommendation to register IRBs is adopted.

In principle, ARENA supports the recommendations that IRBs undergo performance-focused
evaluations. However, based upon past experience with the federal regulatory process, we are
concerned that developing an evaluation system of this type could lead to increased bureaucratic
workload, which would further drain limited IRB staff resources.

Developing an effective “performance-focused” evaluation program would be an exceedingly
difftcult task, which would require identification of appropriate performance-based criteria and
considerable infusion of resources in both the development and implementation phases.
Performance-based criteria should be developed by those heavily experienced in IRB processes.
The criteria should be standardized and universal in its applicability. IRB review is a peer
review process. Ethical decision-making does not lend itself to traditional procedures for
assessing effectiveness. In part, that is the reason why the current inspection system tends to
focus upon the “quantitative” measures (presence of a quorum, continuing review conducted
within 365 days and so forth) rather than qualitative ones.

The report also recommends that the evaluations be made available to the public. We question
how valuable that information would be to the lay public. The performance-based system should
first be developed before the decision is made on whether the evaluations provide enough
valuable information to warrant dissemination to the general public.

Recommendation 2: Strengthen Continuing Protections for Human Subjects Participating
in Research

ARENA agrees that the role of Data Safety Monitoring Boards should be expanded and that
providing IRBs with feedback on the developments in multi-site trials would strengthen human
subjects’ protections. Also, ARENA concurs that IRBs should be provided with feedback about
FDA actions against investigators. Many IRBs have compensated for the lack of feedback from
auditing organizations by requiring the results of any inspection be reported to the IRB as part of
the continuing review application.

In addition, ARENA members have expressed serious concerns about the potential in the current
system for sponsors to seek out IRE3s which do not raise substantive issues or request numerous
modifications in the informed consent document. We support any recommendations which
would discourage “IRB shopping” for ease of approval. We support the recommendation that
sponsors and investigators notify independent boards of prior reviews of research plans.
Implementing this recommendation may not be appropriate for institutional IRBs which review
multi-site trials that have previously been reviewed by numerous other IRBs at other sites.

There are some safeguards currently in the system that deter “IRE3 shopping.” The FDA form
FD1572 requires an investigator to report any change of IRB. Most independent Irks ask about
submission to other IRBs when they fust receive a protocol for review. Many of the multi-site
studies seen by independent IRBs are also reviewed by one or more institutionally-based boards.
Also, it is commonplace for institutions to require investigators to use their internal IRBs. An
investigator in an institution generally has no choice about which IRB to use. He or she must use
the ERR covered by the Office for Protection from Research Risks (OPRR) Assurance for that
institution. ..i

In principle, we support the recommendation that IRBs should have increased awareness of on-
site practices. However, ARENA has two concerns. First, our experience in the field suggests
that the most effective IRBs are ones that have a collegial relationship with investigators.
Violation of the long established “ethic of trust” would undermine IRB effectiveness. We agrzc
with OIG assessment that one of the most significant challenges facing IRBs is how to achieve
increased awareness of on-site practices without unde mining the “ethic of trust.” Our other
concern is a practical one. The approaches for increasing awareness of on-site practices
suggested in the report (e.g., random audits, observing the consent process) would require
considerable staff and IRB resources to implement. This concern is addressed in more detail in
the comments on Recommendation 5.

Recommendation 3: Enact Federal Requirements That Help Ensure That Investigators and
IRB Members are Adequately Educated About and Sensitized to Human-Subject
Protections

philosophically, ARENA supports the recommendation for mandatory training of investigators
and board members. However, institutions and IRE3sdo not have adequate resources to comply
with mandated requirements for training programs. These efforts should be a shared
responsibility and should not fall solely upon the IRB or the institution. The responsibility of
conducting ethical and sound scientific research is a shared responsibility of the investigators.
Training on the ethical conduct of research should become part of the medical or graduate school
curriculum. Investigators should also be responsible for providing training to their entire
research team.




                                                4

Responsibility for providing training should also be shared with federal agencies. Both FDA and
OPRR should be provided the resources to expand their training initiatives. Also, a number of
national organizations such as ARENA and PRIM&R offer training and are in the process of
developing new programs which focus on both investigators and board members. DHHS
funding programs should be developed to support initiatives of this type. Also, expenses for
providing ethical conduct of research training should be an allowable cost for all DHHS funding
mechanisms. Efforts to cap indirect costs only serve to further drain dwindling institutional
resources.

ARENA does not support the recommendation that investigators provide written attestation of
their familiarity with and commitment to human subject protections. This procedure would not
serve as an effective training tool. Our experience suggests that investigators submitting grant
proposals have a number of demands upon their time. Signing the attestation statement will
become just another bureaucratic hoop that investigators go through in submitting the grant
application.

Recommendation 4: Help Insulate IRBs from Conflicts that can Compromise Their
Mission in Protecting Human Subjects

Although ARENA would agree that IRBs should be insulated from conflicts, we are
uncomfortable with this recommendation because it implies that the IRB mission is currently
compromised. In fact, our experiences have not supported that conclusion. We acknowledge
that at institutional IRBs there is increased pressure from both investigators and the
administration to “do more faster.” However, the focus has generally been on “improving
efftciency” not upon diminishing protections for human subjects. Most institutions are
committed to protecting human research subjects as are the IRB members and staff. ARENA
also found this recommendation confusing because it did not include any reference to
independent board confkts. Not addressing this issue in the recommendations implies that
conflicts are only problematic for institutional based IRBs; this conclusion conflicts with the
observations regarding potential financial conflict of interest included in the OEI-0 l-97-00 192
report.

Although ARENA agrees that nonscientific and noninstitutional members serve an important
role in reviewing protocols, we do not support the recommendation that additional federal
requirements for increased representation be enacted. We do not agree with the OIG conclusion
that the current requirements are inadequate. Regulations and federal policy require that the
membership include a nonscientist and a noninstitutional representative. Meeting these
requirements by appointing a single individual is not a standard IRB practice. In addition, the
requirements specify that a nonscientific member must be present to conduct a full review. The
decision to “add” additional members should be left to the discretion of the IRB. From a
practical standpoint, obtaining a quorum for “full review” is difficult and increasing the total
number of members will only serve to exacerbate this problem. Based upon our experiences, we
do not agree with the OIG statement that few “outside members” are on boards. Our experience
suggests that this is simply not the case. IRBs always include at least one such member and
many IRBs include additional noninstitutional members. Also, the statement “Few IRBs seem to


                                                 5
seek or be able, on a consistent basis, to recruit and maintain lay members.. .” may be true for
some IRBs but in our experience is not true for the majority of IRBs.

Recommendation 5: Recognize the Seriousness of the Workload Pressures that Many IR,Bs
Face and Take Actions that Aim to Moderate Them

ARENA applauds OIG’s recommendation to require that IRBs have access to adequate resources
but does not think that “requiring” is sufficient. One of ARENA’s overriding concerns about the
recommendations is that they have the potential to establish a number of Ymfunded” mandates.
Recommendations 1,2, and 3 will require considerable additional resources to implement. The
fmdings of the assessment as outlined in the continuing review and the summary reports clearly
indicate that IRBs are currently lacking in adequate resources; yet, the implementation of the
recommendations will only serve to increase costs and the need for additional staff and
resources. Many institutions are committed to providing adequate resources but in fact do not
have sufficient funds to do so. At the federal level, the problem is exacerbated by increased
agency requirements for cost sharing and continual efforts to reduce indirect cost rates. DHHS
needs to develop support mechanisms to assist in funding the new initiatives. The OIG should
include acknowledgment that it is likely the proposed recommendations will not be effective
unless additional resources are available.

Recommendation 6: Re-engineer the Federal Oversight Process

ARENA agrees with the recommendations to revamp the National Institute of Health/Office for
Protection Corn Research Risks (NIWOPRR) assurance mechanism and refocus the FDA on-site
inspection process on performance based criteria. As pointed out in our comments on
Recommendation 1, we support performance-based evaluations but are concerned about the
difficulties in developing a system of that type. Efforts must be made to ensure that in re-
engineering the Federal oversight process that the “old” bureaucratic hoops are not simply
replaced with “new” bureaucratic hoops with only marginal relationship to quality and
effectiveness of reviews. ARENA feels that it is important to periodically evaluate the IRB
review system. It is equally important that this system be assessed fairly and appropriately.

ARENA also wants to stress the importance of FDA and NII-IYOPRR continuing to coordinate
federal policy development. If FDA and OPRR policies are as uniform as possible, given the
legislative mandate for each agency, the bureaucratic burden on IRBs would be greatly reduced.
Also, we strongly support the recommendation that experienced IRB members and staff should
play an on-site role in reviewing IRB performance and the suggestion that Federal agencies
include a peer review element or offer IRBs some type of incentive as part of a continuous
quality improvement effort. We also support the recommendation that all IRBs be registered
with the Federal Government, provided the mechanism is streamlined. Based upon our
experiences in the field, ARENA is concerned that even though the registration process is
proposed to be “simple” the procedures could, in fact, become “complicated,” adding to the
already unmanageable IRB administrative workload.




                                                 6

In conclusion, ARENA acknowledgesthe effort OIG made in reviewing IRB regulations and
procedures. It is a difficult task to write reports that encompassthe activities of IRBs from such
a wide variety of facilities and institutions involved in the conduct of human subject research.
ARENA also appreciatesthe inclusion of innovative proceduresselectIRBs have developed to
copewith the ever burgeoning task of IRB review. It provides a balancefor what will be
perceived as a negative report on IRB processes. Many IRBs do conduct substantivereviews
and simply do not get the recognition deservedfor the ethical diligence.

The recommendations made by OIG, for the most part, are onesthat could be implemented by
many IRBs to improve the quality of their reviews. It is true that with additional resourcesmany
IREiscould become more sophisticatedin their review processes. It is not clear Eromthe report,
however, from where theseresourceswill originate. It is a long leap from “requiring” such
resourcesto actually receiving them.

ARENA thanks you for the opportunity to comment on the reports. If any additional information
is required, pleasedo not hesitateto contact us.


Sinc~ely,~, :,!



William Freeman,M.D.                  Ada Sue Selwitz, M.A. 

ARENA President                       Chair, Public Policy Committee 



       Drafting Committee:
       Gary Chadwick                  Erica Heath                   Gwenn Oki 

       Norma Epiey                    Moira Keene                   JoanRachli.n 

       SharonFriend                   SusanKometsky                 Beth Ribbeck 

       Karen Hansen                   Helen McGough                 Pat Scannell 





                                                7

                                                                                APPENDIX       D
                 OIG RESPONSE TO ARENA COMMENTS

In our review, we gained great respect for the work and commitment of IRB
administrators and members, often under very trying circumstances. We listened,
sometimes at considerable length, to them articulate concerns about the developments
that threaten the effectiveness of their boards. Sometimes we were able to supplement
these conversations with a review of records and reports concerning their operations. In
its response to our draft report, ARENA, whose members are IRB administrators and
members, did not tend to reflect the same message we heard so consistently from the
individual administrators and members during our year-long inquiry.

As the ARENA response itself suggests, perhaps to some degree this disconnect is
attributable to some of the language we used in our draft reports. In an effort to improve
communication and focus attention on the necessary reforms, for which we believe there
is considerable support, we have changed some of the language we used. Thus, we have
changed the title of this overview report from “A System in Jeopardy,” to “A Time for
Reform.” We have made other such changes and elaborations to indicate, even to the
casual reader, that our reports are not intended as a “blanket condemnation” of the work
of IRE3.s.At the same time, we must stress that we still find that the effectiveness of the
system is, indeed, in jeopardy. As an independent overseer, it is vital that we present such
a warning when we find it applicable, and do so in a manner that is clearly
communicated. Thus, within the report, the jeopardy warning remains as our central
finding.

Another key linguistic change we made was in the use of the term “oversight.” Given
ARENA’s concerns, we reserved that term for the monitoring of IRBs done by the
Federal agencies (NIH and FDA). With respect to IRE& themselves, we now refer to their
role in conducting “continuing review” of approved research rather than oversight. This
is consistent with the language used in the Federal regulations concerning IRE&. We
must note, however, that those regulations clearly give IRE3sthe authority “to observe or
have a third party observe the consent process and the research”--something that, in fact,
they rarely do. Further, an OPRR “Dear Colleague” letter to IRE3scalls for continuing
review to be “substantive and meaningful”-- a characterization that many IRE! officials say
does not describe current practice. This limited attention to continuing review is
unfortunate, because while to varying degrees other parties conduct continuing review of
approved research, they, unlike IRE&, do not have a central mission of protecting human
subjects.

Our focus on continuing review emerged because a prior OIG inspection concerning
investigational medical devices found, in four case studies, considerable evidence of
inadequate continuing review, and because of the findings of various other studies cited
in the report. We state in this report that our inquiry has led us to become even more
concerned about the inadequacy of continuing review. The ARENA questions the basis
for that conclusion, citing the observation of a representative of one of the academic


                                      D - 27           OEI-01-97-00193   IRBS: A Time For Reform
                                                                                 APPENDIX      D

health centers we visited. That person wondered how we could reach such a conclusion
when during the 3 days we spent at that center we did not review any specific protocol.
Our response is that, as we note in the report, we did not seek in this inquiry to conduct
any audits of particular protocols or investigations of specific cases. It was our broader
systemic analysis that led us to recognize the limits of the continuing review that Irks do
conduct. It was the substantial accumulating evidence associated with that awareness that
led to the intensification of our concerns about the adequacy of continuing review.

In regard to ARENA’s comments on our recommendations, we must stress what we
perceive to be the importance of IRESsbecoming more fully accountable to the public. It
is toward this end that we strongly urge ARENA to recognize the overriding importance
of performance-focused evaluation, not just in terms of the complex task of developing
performance measures, but even more so in terms of concrete actions that IRELscan and
should take to assess and verify the actual results of their efforts in protecting human
subjects. (Our response to FDA elaborated on some of the questions that could be raised
in this regard.) It is toward the same end of shoring up public accountability that we urge
greater representation of outside interests on IRE&. As 1-s become more involved in
conducting reviews involving genetics research, which raises vital issues involving the
use and confidentiality of information, such broader representation will become even
more important. The public credibility of the entire IRI3 review process could depend
heavily on such representation. We know that many IRB officials agree with this
assessment and that they have been frustrated by their lack of success in recruiting and
maintaining a sufficient core of nonaffiliated members who provide an effective
counterbalance to institutional interests.

With respect to our recommendation calling for investigators to provide a written
attestation of their familiarity with and commitment to human-subject protections, we
regret that ARENA viewed it as an unjustifiable demand on investigators’ time. This
recommendation parallels one carefully considered and presented by the Commission on
Research Integrity. We submit that the signing of the attestation by investigators would
take minimal time, but would represent an important formal commitment to take
seriously their responsibilities in upholding human-subject protections as called for in
Federal regulations. Many IRB officials themselves suggested that they had a difficult
time getting investigators to devote sufficient attention to those regulations.

On the matter of insulating IRESsfrom conflicts, we agree with the comment that our draft
report made it appear that the possibility of conflicts were greater for institutionally based
Irks than for independent ones. Accordingly, we have revised the text to more fully and
clearly express our concern about how conflicts can compromise the mission of all types
of IRBs. We also agree with the concerns raised about the adequacy of resources, as we
have commented on in response to the FDA comments.

Finally, in response to ARENA’s concern about the type of IRBs to which our findings
and recommendations apply, we note that they are presented as applicable to the IRIS


                                       D - 28           OEI-01-97-00193   IRBS: A Time For Reform
                                                                              APPENDIX      D

community as a whole. Obviously, some will be more relevant to some types of IRBs
than others. Occasionally we point that out when we have reason to believe that to be the
case. Overall, we have given more attention to IRBs in academic health centers, where,
as we point out, a significant portion of research continues to be conducted. So our
findings have particular applicability to them. But in the course of our inquiry we have
interacted with representatives of IRBs in many other settings, including hospitals of
various sizes, public agencies, and independent, free-standing bodies. We would not
exclude them from the main thrust of our findings.




                                      D - 29         OEI-01-97-00193   IRBS: A Time For Reform
24x) N STFtEFL N%! WASHINGTON,     IX 20057-1127                                    Jordan J. Cohen, M.D., President
PHONE 202-828-0400    FAX 202-828-1125




         May 4, 1998 




         JuneGibbs Brown       ’

         Inspector General 

         Department of Health and Human Services 

         Fifth Floor 

         330 IndependenceAvenue, N.W. 

         Washington,D.C. 20201 


         Dear Ms. Brown: 


         On behalf of the Association of American Medical Colleges(AAMC), I would like to thank you
         for sharingwith us your March 1998 draft report on institutional review boards. The AAMC’s
         membership- all 125 accreditedU.S. medical schools,over 400 teachinghospitals,and 89
         scientific and academicsocieties-- conductsthe majority of clinical researchin this country, and
         ensuringthe safety of those who volunteer to participate as subjectsis a significant concernof this
         Association. The keystone of the current systemof protections is the institutional review board
         (IRB), and thus the sound functioning of thesebodies is of the utmost importance.

         The study your office conductedwas reported in four volumes,but they include many recurrent
         themesand observations. Thus, for the sakeof simplicity and brevity, this letter will focus on the
         most salient issuesand recommendations,rather than comment on eachreport separately. First, a
         few very general observationsare in order.

         Taken together, the reports do not adequatelyacknowledgethe proper role of IRBs in assuring
         the protection of human subjectsin research. IRBs were establishedas a consequenceof the
         report of the National Commission for the Protectionof Human Subjectsof Biomedical and
         Behavioral Research(Belmont Report), which identified the basicprinciples of beneficence,
         justice, and respectfor personsthat havebecomethe cornerstonesof ethical clinical research.
          Guided by theseprinciples, the role of the IRB is to weigh the risks posedby the researchagainst
         the benefits that the researchmay offer to the patient and society. IRBs arethus constituted in a
         way that enablesexamination of theseethical considerations. They were establishedto work
         collaboratively with investigators,the vast majority of whom arealtruistically motivated and
         intend to do the right thing. IRBs aid investigators in their work by ensuringthat subjectsare
         fully informed, and that any risks are reasonablein relation to anticipatedbenefits.

         In contrast to theseobjectives,the report seemsto presumeinsteada policing or auditing role
         that, in fact, is inconsistentwith the mission articulated for IRBs in the Belmont Report. For
June Gibbs Brown 

May 4, 1998 

Page 2                                     .


example, the summary report observes,“the IRB processis rooted in trust,” and assertsthat this 

characteristic is in conflict with the oversight role of theseboards. This observationseemsto 

serve as a premise for much of the report and reflects a fundamental tisunderstandiig about how 

IRBs were intended to function. It is the trust that existsbetween the IRB and investigator that 

permits this systemto work effectively becauseit encouragesopenness,responsiveness,and 

collaboration. 


Nonetheless,asthe report amply notes, IRBs indeed face tremendousstressesat this time. They 

unquestionably bear enormous workloads and could undeniably benefit from additional resources. 

The AAMC is sympatheticto many of the observationscited in the report along theselines, but 

finds that the title of the report and some of the introductory text are disproportionately alarming.’ 

The systemis neither in crisis, nor on the verge of collapse,as somemight infer. As your cover 

letter-appropriately states,the system is “supported by many conscientiousresearchinvestigators 

committed to protecting human subjectsand by many dedicatedIRB membersand staffdoing 

their best...” This fact is beautifully illustrated by the volume of your report on Promising 

Approaches, which provides in a very constructive and positive way useful examplesof how 

particular JRBs havebeen especially innovative in overcoming obstaclesand in enhancingtheir 

effectiveness.As a consequenceof this dedication and resourcefulness,the systemhasworked 

remarkably well in the face of many challenges. 


The report is also prone to generalizations and very sweepingconclusions,eventhough it is based 

on a literature review, interviews with alimited sampling of IRB representatives,andvisits to only 

six institutions. While certain observations are certainly true anecdotally, an impressionis given 

that they apply to all, or even a majority, of IRBs, which may not be the case. Statementsin the 

report concerning continuing review are a particularly salient exampleof this type of writing. 


On the topic of resources,the report notes the extent to which IRBs needto have adequate 

material SUppOtt to enable them to carry out their responsibiities. The AAMC concurswith this 

statement,but notes that the greatest challengeis finding the necessaryfunds to develop and to 

make available such resourcesas office space,computers, and administrative support. Institutions 

face both increasing cost sharing on federally supportedresearch(through the cap on . 

reimbursementof administrative costs, for example) coupled with an accretion of compliance and 

other regulatory requirements, and thus funds for thesesorts of resourcesare increasingly scarce. 

One solution may be to develop a specially-designatedsource of federal support for IPB 

activities, either through a mechanismthat would be funded in proportion to NlIMmded human 

subjectsresearch,or through a more general&d flexible fimdiig mechanism,such asthe 

“ResearchInnovation Oppot-&mit$‘. program, which the AAMC hasproposed as a substitute for 

the now defunct BRSG program. 

June Gibbs Brown
May 4, 1998
Page 3




While many of the recommendationsin the report are reasonable,some are problematic or in need 

of refinement. Detailed commentsare provided below: 


Recommendation 1: Recast Federal IRR Requirements so that They Grant JR.& Greater 

Flexibility and Hold Them More Accountable for Results - The Association agreesthat IRBs 

spendtoo much of their attention on perfunctory review responsibilities, and that lesseningsome 

of theserequirementswould be a usefbl step, particularly review of protocols that ultimately 

neverget funded. Performance-focusedevaluationscan be desirablefor certain activities, but may 

be problematic for IRBs. The key will be to discernthe appropriate performance-basedcriteria to 

usefor evaluation of IRB performance, which is very qualitative in nature. The report 

recommendsmaking IRB evaluationsavailableto the public, but it is not clear what types of 

information,would be provided and how lay people could assessit meaningfully. Until this is 

better defined, the AAMC would discourageroutine public disseminationof suchreports. 


Recommendation 2: Strengthen Continuing Protections for Human Subjects Participating 

in Research - Multi-site trials do indeed pose specialchallengesfor oversight, and it would be 

reasonableto require that Data Safety Monitoring Boards play a significant role in assessing, 

summarizing,and determiningwhen and how to follow up on adverse-eventreports. The AAMC 

also agreesthat IRBs shouldbe informed about the progressof multi-site trials as a whole, even 

though an individual board’s review may be limited to the,work being conducted at a particular 

institution. Indeed, IRBs needto be aware of adverseeventsoccurring elsewhere,suchthat the 

risks of the protocol canbe reassessedfor the local study population. More systematic 

communication from the FDA to IRBs about actionstaken againstinvestigatorsis also a laudable 

objective, asunderscoredin the report. 


Finally, while appreciatingthe intent of recommendation2e -- increasedIRB awarenessof on-site 

researchpractices- it should not be conducted in a mannerthat threatensthe collaborative 

relationship betweenthe IRB and investigator. As statedearlier, IRBs are not watchdogs, and 

neither havethe resourcesnor mission to be expectedto conduct surprise visits on investigators. 


Recommendation 3: Enact Federal Requirements that Help Ensure that Investigators and 

DU3 Members are Adequately Educated About and Sensitized to Human-Subject 

Protections - This is perhapsone of the most important recommendationsin this report. 

Problems,when they occur, are most often attributable to inadequatetraining and sensitizationon 

the part of investigators. Individual institutions, aswell as national organizations, suchasPublic 

Responsibility in Medicine and Research(PRIM&R), are developing educational programs, some 

targeted at investigatorsand others focused on IRB members. NE&supported mechanisms 

JuneGibbs Brown
May 4, 1998
Page4


should be developedto support thesekinds of outreachand clinical researchtraining activities
that require significant resourcesto function effectively.

Recommendation 4: Help Insulate IRBs from Conflicts that Can Compromise Their
Mission in Protecting Human Subjects - This recommendationis improperly tied and
problematic in practice. The observationsmadeat the outset of this recommendation imply that
IEU3sregularly havethe institutional interest in heart at the expenseof those of researchsubjects.
This setsup a false logic whereby the subjects’ interestsare presumedto be in conflict with those
of the institution, and that the IRB somehow must choosebetweenthe two. The fact of the.
matter is that nothing could be more in the institutional interestthan protecting the subjectsof
research. Apart from the firm commitment that all medical schoolshaveto the ethical principles
underlying the Belmont Report, violations of those principles put institutions at extremerisk.
Thus, the predominant pressurethat IRBs feel fi-om their parent institutions is to be rigorous in
their review. -

At the very least, any amplification of the current requirementfor representationof non-scientific
and non-institutional membersshould be at the discretionof the IRB. First, participation on an
IRB is done voluntarily and demandssign&ant amount of time. Finding membersof the public
who are willing to give of themselvesto this degreecanbe exceedinglydifiicult. Second,once
appointed, theseindividuals often do not becomesignificant contributors to IRB deliberations
until they have servedfor a long enough period of time to developa relevant ethical and scientific
knowledge base. At that point, they generally bring the sameconcernsand perspectivesto the
table astheir other colleagueson the board. Adding additional non-scientific and non-institutional
membersis thus likely to put a strain on IRBs while theseindividuals are recruited and“brought
up to speed” that will not be outweighed by the ongoing contributions of suchparticipants. In the
end, what benefits the IRB processand patientsthe most is the quality of outside membersand
the contributions they make, not simply the numberof them on the committee.

Recommendation 5: Recognize the Seribusness of’the Workload Pressures that Many IRBs
Face and Take Actions that Aim to Moderate Them - The needthat JRBs havefor ample
resourcescannot be overstated,yet merely to require adequateresourcesis insufficient. As stated
earlier, bureaucratic accretion coupled with institutional cost sharingis making the provision of
resourcesincreasingly d*ZEicultat a time when IRBs faceunprecedentedburdens. Institutions do
their best to provide IRBs with the materials they need,but a specialNJH support mechanismas
previously describedshould be developed. In addition, the provision of adequateresources
should be a priority, but is not implementable asaformaZ requirement. It would be diicult if not
impossible to develop workable criteria for determiningthe types and levels of resourcesthat
would be adequatefor the very diverse set of IRBs that are now in existence. Their workloads
and local circumstancesarevery different, as are consequentlytheir resourceneeds.
JuneGibbs Brown
May 4, 1998
Page5


Recommendation 6: Reengineer the Federal Oversight Process - The report repeatedlycites
the inadequaciesof IRB oversight of ongoing protocols. It is important to note that the needfor
oversight varieswidely, dependingon the complexity and risks posedby eachprotocol. Thus,
any performance-basedassessmentsshould take this into account. With this in mind, the AAMC
particularly supportsthe proposalsto emphasizeinstitutional assurancesof confommncewith
federal IRB requirements,and education to help investigatorsandIRB membersbecomeas
attuned as possibleto human subjectsconcerns. Similarly, the shift in emphasisproposedfor
FDA review - from narrow compliance checksto more performance-basedcriteria - may be
workable, but should take into account the caveatexpressedearlier about-theneedto develop
soundperformancebasedcriteria first. We particularly applaudthe proposed involvement of
experiencedIRB membersin reviewing II& performanceasa form of “peer review.” The
registration of all IRBs with the government seemsreasonable,aswell.

Special Issues: Advertising   to Recruit Human Subjects - All advertising for the purposesof
patient recruitment is consideredpart of the researchprotocol, andthus must be reviewed and
approvedby an IRB. IRE3sthus examinethe text of theseadvertisementswith an eyeon ensuring
that they are not overly coercive with regard to financial inducements,nor misleadingwith regard
to the statedbenefits of participation in research. Nonetheless,patient recruitment canbe a
challenge,sincevolunteers must give of their time and often must be inconveniencedto
participate in a protocol. Thus somemodest level of compensationis generally reasonable.

The specific advertisementsprovided in the report are highly anecdotaland do not enhancethe
reader’sunderstandingof the predominant way in which suchadvertisingoccurs. Nor doesthis
approachrecognizethe extent to which subjectsbecomeinformed of clinical researchthrough
their physicians,voluntary health societies,or patient advocacygroups, which havehistorically
actedquite responsiblyand often with the benefit of IRB input, either directly or indirectly.



In conclusion, it is important to emphasizethat, overall, this is a systemthat hasworked
remarkably well, and one that is not on the verge of collapse. Thus the alarmist tone in some
sectionsof the report, particularly the overview, shouldbe lessenedto make the level of concern
expressedmore proportional to the magnitude of the problemsidentified in the report. We also
strongly suggestthat the title of the report be changedto be lesssensationaland more
constructive in tone. In addition, the traditional and proper role of IRBs in ensuringthe
application of the Belmont Report principles to humansubjectsresearchmust be emphasized,and
text implying an auditing or policing role should be eliminated.

On the other hand, the AAMC findsthe OIG’s report to raisemanyvalid and important
observations. The most salient include those that relateto the extent to which IRBs face
JuneGibbs Brown
May4, 1998
Page6


tremendousworkloads and could benefit Corn additional resources. The report also provides
much useful and constructive information on how specific institutions havebeeninnovative in
enhancingIRB effectiveness. This material, found largely in the volume on Promising
Approaches, should be amplified andbecomea central focus of the report.

The AAMC thanks you once again for this opportunity to comment and invites you to cantact the
Association again if we can be of service.
                                                                                APPENDIX D 

                  OIG RESPONSE        TO AAMC      COMMENTS

We concur with AAMC that the IRBs are the keystones of the current system of
protections and that “the sound functioning of these bodies is of the utmost significance.”
That is why we have given so much attention to just how they are functioning and how
they might be improved. Obviously, we disagree with AAMC on a number of the
particulars.

One of the most important of these particulars has to do with how we interpret the role of
IRBs in carrying out their protective responsibilities. The AAMC stresses that from the
beginning the essence of that role has been one based on trust, whereby IRBs work
collaboratively with investigators to help them ensure that the necessary human-subject
protections are in place. It points to the Belmont Report, produced in 1979 by the
National Commission for the Protection of Human Subjects of Biomedical and
Behavioral Research, as establishing the basis for this collegial role. It suggests that we
misunderstand this backdrop and assume “a policing or auditing role” for IRBs.

As we note in our reports, we recognize the fundamental importance of trust between
IRBs and the research community. At the same time, we underscore that trust in itself is
insufficient. This is particularly true today as IRBs face many possible conflicts in an
increasingly commercialized research environment. But even in the 1970s the National
Commission noted above had more than trust and collegiality in mind when delineating
the role of IRBs. The Belmont Report cited by AAMC is an important report setting forth
ethical principles of research. But prior to it, the National Commission produced many
other reports. One, as we elaborate on in Footnote 28 of our report on continuing review,
focused specifically on IRBs. In that report, the Commission elaborated on the
verification efforts that IRBs might undertake. These included interviews with human
subjects, requirements that investigators give subjects a form through which they may
report their research experiences to IRBs, and even, in certain cases, requirements that a
neutral party be present to help a potential subject to consider the pros and cons of
participating in a research effort.

We emphasize this matter here at the outset of our response because it is fundamental to
the kind of reforms we (and many others) regard as necessary. If our calls for greater
accountability through more results-focused assessments, broader representation on IRBs,
and other measures, are routinely dismissed as violating the essential principles of IREs,
then little progress is likely. Thus, further discussion of this important matter in the
research and policy communities would be highly desirable. Our intent is to maintain the
foundation of trust, but to complement it with various types of verification that are
essential for a review body having a vital role in protecting human beings.

The changes we have made in some of the language we use, as we noted in our response
to ARENA, may help address some of the concerns AAMC expresses about our
generalizations and conclusions. We do not conclude that the IRB system is necessarily


                                       D - 36          OEI-01-97-00193   IRBS: A Time For Reform
                                                                                APPENDIX      D

“on the verge of collapse,” but we certainly do have reason to conclude that its 

effectiveness is in jeopardy. We have tried in these final reports to use language even 

more carefully to express our serious concern without conveying a greater degree of 

imminent danger than we have basis to suggest. 


The AAMC, as other commenters, addressed the matter of resources and how they might 

best be tapped to support the IRBs’ important role. It suggested that some specially 

designated source of Federal support might be developed. As we have noted in other 

responses in this appendix and in the introduction to our recommendations, we recognize 

that this is an important issue warranting further examination, especially as IRB 

responsibilities expand. 


The AAMC supports our recommendation that IRBs be granted greater flexibility in 

carrying out their responsibilities, but is wary of performance-focused evaluations, 

especially if made available to the public. As we have noted in response to FDA and 

ARENA, there are many practical ways of incorporating a greater focus on results, both in 

the IRBs’ own continuing review efforts and in outside assessments of IRBs. And we 

would add that these could be carried out and presented in ways that lay people would 

find quite possible to understand. Further, we stress that a greater accountability for 

results must be integrally associated with efforts to grant IRBs greater flexibility. 


In regard to our recommendation urging that NIH and FDA help insulate IIU3s from 

conflicts that can compromise their protective mission, AAMC indicates that “nothing 

could be more in the institutional interest than protecting the subjects of research.” We 

agree with the principle expressed in that comment. But in settings where clinical 

research represents as much as a quarter or more of the operating income of IRBs’ parent 

institutions, where IRBs are urged to expedite their review processes and make other 

adaptations to accommodate sponsors, where IRBs serve under the auspices of 

organizational units primarily responsible for bringing in research dollars, we submit that 

it is reasonable to be concerned about the kind of conflicts we point out. Many IRB 

officials themselves have emphasized this point to us, quite strongly. 


Finally, on the matter of advertising to recruit human subjects, AAMC indicates that our 

warning is “highly anecdotal” and that we exaggerate the danger associated with these 

advertisements. Our response is that with little difficulty we accumulated 60 

advertisements that were highly imbalanced in presenting risks (rarely mentioned) and 

benefits and that we could easily have collected many times that number. 

Notwithstanding the fact that many subjects are recruited through quite responsible means 

and that all must sign an informed consent form, we suggest that the advertisements do 

represent a danger that warrants careful attention. Just a mere glance at the inducements 

offered in many of these advertisements makes that quite obvious. 





                                       D - 37          OEI-01-97-00193   IRBS: A Time For Reform
   CONSORKWMOF                      INDEPENDENTREVIEWBOARDS

                                             May.4, 1998



June Gibbs Brown 

Inspector General               .. 

Oflke of Inspector General 

Department of Health and h&n    Se&c 

330 Independence Avenue, S.W. 

Washington, DC. 2020 1 


       Rt:     Draft Reports Conttrnlng       Institutional   Rtvitw   Boards

Dear Ms. Brown:

         On behalf of the Consortium of Independent Review Boards (“CIRB”), we congratulate
the Department of Health and Iiuman Services’ (“I-NY) Office of Inspector General (“OIG”) on
its four comprehensive reports on a difficult issue. In addition, CIRB thanks you for the
opportunity to meet with you and comment on the 010 reports concerning the effectiveness of
current Institutional Review Board (“IIZB”) regulations, policies, and practices. Provided below
are our comments concerning the following documents: (1) Inrtifutional Revtew Boar& A
System in Jeopardy (Drafl); and (2) Institutional Review Boards: The Emergence of Independent
Boards (Drafi). The CIIU3 membership hopes that these comments will be helpful to 010 as it
finalizes the draft documents.

       1. 	    INSTITUTIONAL             REVIEW   BOARDS:       A SYSTEM IN JEOPARDY
               (DRAFT)            .. .

        As the document fnsritlitfonal Review Boar& A System in Jeopardy (Drafi) clearly
reflects, the environment within which IRBs currently operate is very different from that which
existed when the Federal IRB regulations were first implemented. Thus, CIRB agrees with the
OIG’s recommendation to recast these regulations so that the focus wiil be on IRE performance
rather than merely IRB compliance. OIG’s suggestions to mod@ or eliminate certain
perfunctory Federal requirements that may not be necessaryto proteot human subjects, and to
establish new Federal regulations or guidances that require, and set standards for, IRB
Performance-Focused Evaluations wilI greatIy assistin implementing this recommendation. The
OIG report correctly observes that many IRBs operate under significant timeand resource
constraints. While a large proportion of the Federal regulations certainly support human subject
protection, when IRBs must spend precious time complying with redundant or unnecessary




Consortium of Independent Review Boards                                     Phone: (513) 7614100
10 Knollcrest Drive, Suite 200                                                Fax: (513) 761-1460
Cincinnati, OH 45237
MS. June Gibbs Brow 

May 4, 1998 

Page 2 


Federal regulations, inadequate time and resources are I& for ongoing activities. Elimination of 

such regulations would allow IRBs to focus their limited resourceson strategies that would allow 

more effective initial review of rescarch activities by providing time to carefully consider the 

research and the protocol. 


        In addition, CIFU3strongly endorses rho recommendation that NIH/OPRR and FDA
convene symposia with IRBs to discuss performance measuresand self-evaluation measures that
will encourage IRE3accountability to its stated purpose: the protection of human subjects. We
believe that such symposia would~result in fruitful dialogue between the agencies, the Irks, and
other interested parties or users of IRBs, such as investigators and sponsors, and would allow the
agencies to develop effective oversight policies.

        We also strongiy support the 010’s recommendations concerning “information sharing.”
While the majority of sponsors and investigators have demonstratedintegrity during the IRE3
review process, we believe it is important that these parties be obligated to inform a reviewing
IRE3about any prior reviews. Further, so that an 1RB can function effectively, it should be
provided copies of a11FDA and OPRR regulatory inspectional reports and correspondence with
investigators concerning clinical studies which the IRB has approved and for which it continues
to provide oversight. Finally, becauseclinical investigations are already subject to government,
contract research organization, and sponsor auditing and tnonitoring, we believe that extending
the required “information-sharing” between the parties could bc extremely helpful in providing
“oversight” without adding the burdens of additional site visits to an already overworked clinical
investigator.

        We do have one concern, and that is the definition of the following terms: “continuing
review,” ”monitoring, ” “oversight, ” “visits,” and “inspections.” Chrly, these terms can have
different meanings to different people and it is not completely clear how these terms are being
defined in this report.

       2. 	    INSTITUTIONAL REVIEW BOARDS: THE EMERGENCE                           OF
               INDEPENDENT BOARDS (DRAFT)

          While we agree with much of what is reported in the document entitled Institutional
Review Boar&: The Emergence of Independent Boa& (Drafi), we are concerned about the
report’s emphasis on the independent IRB’s ability to consider local concerns and attitudes as it
reviews research protocols. We note at the outset that the ready availability of information
sharing tools, such as the Internet, has made it more feasible for independent IRBs to become
knowledgeable about local attitudes and interests. Moreover, as the OIG’s draft report,
Institutional Review Boards: A e.rfem in Jeopardy, aptly reflects, the environment in which
IRBs operate has,changed significantly over the past twenty years in that, among other things,
there has been a steady rise in national and multi-site studies. An advantage of an independent
board reviewing a multi-center or national trial is that it can develop a benor understanding of the
safety profile of the product because it receives a broad spectrum of serious adverse event reports
Ms. June Gibbs Brown 

May 4, 1998 

Page 3 



from multiple sites. Such information may not be made available to single site boards. Thus, 

while it is important to maintain a review system that addresseslocal attitudes and concerns, in a 

national or multi-center study environment, the local community is best protected where IRBs 

have the ability to work with a number of sites. 


        Moreover, as the report notes, in the last twenty yeara there has been an incredible
increase in the number of protocols requiring IRB review, while at the same time, the research
community and pharmaceutical industry are demanding that protocols be reviewed more quickly
and efficiently. As a result, the need to address local attitude must be assessedin light of the
national nends that have developed since the early 1970s. We believe that this is a multi-faceted
issue which is ripe for discussion. in.. a symposium setting.

       Again, we txtend,qur congratulations on the report and thank you for the opportunity to
comment on these draft documents. We hope that the OIG will feel tie to contact CIRB if we
can be of any assistance.

                                              Sincerely,




                                              John Isidor, J.D.
                                              Chairman
AMBfamb

cc: 	   ChesapeakeResearchReview, Inc.
        Essex IRB                     _.
        Ethical Review Committee
        Independent Review Consulting
        Quintilw, Inc.
        New England IREl
        Research Consultants Review Committee
        Schuhnan Associates IRB, Inc.
        WestemIRB       1.’
                                                                                  APPENDIX      D

                   OIG RESPONSE TO CIRB COMMENTS

We appreciate CIRB’s generally positive comments about the reports. With respect to its
concerns about the definition of certain terms, we have, as noted in prior comments,
sought to be more precise in our use of the terms “continuing review” and “oversight.”
We use the term “monitoring” infrequently and mainly in context of the work of bodies
other than IRE&s. We use the term “inspections” mainly in context of FDA’s regular on-
site inspections of IRE3and the term “visits” to refer to visits to the IRE3 site, whatever the
basis for the visit.

The CIRE3 also expresses concern about our “emphasis” on independent IRIS “ability to
consider local concerns and attitudes as it reviews research protocols.” It elaborates on
how these IRE& are able to take into account local issues and how in the case of multi-site
trials the independent IRE& are able to tap into a broad spectrum of information from
multiple sites.

We recognize the latter as one of the perceived advantages of independent IRE3sand
indicated that in our report on independent IRBs. At the same time, we felt compelled to
note the lack of a local presence as one of the perceived disadvantages of independent
IRE3.s. We did not emphasize the point. We simply cited it as one of the factors that
many in the IRB community express concern about when assessing the role and
contributions of independent IRE3s. We reiterate here that our report on the independent
1-s is not an evaluation of their performance but rather a description of their growing
role and of the major advantages and disadvantages attributed to them.




                                        D-41             OEI-01-97-00193   IRBS: A Time For Reform
                                                                                         APPENDIX       E

                                           Endnotes 

1. President’s Commission for the Study of Ethical Problems in Medicine and Biomedical and 

Behavioral Research, Implementing Human Research Regulations: Second Biennial Report in 

the Adequacy and Untformity of Federal Rules and Policies, and of their Implementation, for the 

Protection of Human Subjects, (Washington, DC: U.S. Government Printing Office, 1983). 


2. For a fuller explanations of these concerns see Nancy E. Kass and Jeremy Sugarman, “Are 

Research Subjects Adequately Protected? A Review and Discussion of Studies Conducted by the 

Advisory Committee on Human Radiation Experiments,” Kennedy Institute of Ethics Journal, 

Vol. 6, (1996), No. 3, pp. 27 l-82, and the Advisory Committee on Human Radiation 

Experiments, Final Report, (Washington DC: U.S. Government Printing Office, 1995). 


3. U.S. General Accounting Office, Scienttfic Research: Continued Vigilance Critical to 

Protecting Human Subjects, GAOHEHS-96-72, March 1996. 


4. Department of Health and Human Services, Office of Inspector General, Investigational 

Devices: Four Case Studies (OEI-05-94-OOl OO), April 1995. 


5. According to the President’s Budget for Fiscal Year 1999, the NIH, which is the flagship of 

the President’s Research Fund for America, would be increased by nearly half over five years. 

For more discussion, see Robert Pear, “Medical Research To Get More Money From 

Government,” New York Times, Saturday, 3 January 1998, pp. Al and A8. 


The Task Force on Genetic Testing calls for placing greater emphasis on the role of the IRB in
evaluating genetic research protocols. (Eds. Neil A. Holtzrnan, and Michael S. Watson,
Promoting Safe and Effective Genetic Testing in the United States: Final Report of the Task
Force on Genetic Testing, NIH-DOE Working Group on Ethical, Legal, and Social Implications
of the Human Genome Research, September 1997.) In addition, a recent Senate bill would rely
on the IRB to determine measures of confidentiality, such as whether subject identifiers should
be retained (S. 192 1, 105’h Congress, sponsored by Senators Jeffords and Dodd).

6. The body is the National Bioethics Advisory Commission. It was established by Presidential
executive order on October 3, 1995. Its charter, issued in July 1996 by the Assistant to the
President for Science and Technology, calls for it to focus its attention on: “A. Protection of the
rights and welfare of human research subjects; and B. Issues in the management and use of
genetics information including but not limited to human gene patenting.” For some background
on the Commission and its emergence, see Alexander Morgan Capron, “An Egg takes Flight:
The Once and Future Life of the National Bioethics Advisory Commission,” Kennedy Institute of
Ethics Journal, Vol. 7, (March 1997) No. 1, pp. 63-80.

7. We use the term “academic health centers” in accord with the following definition offered by
Blumenthal, et al: “One of 125 institutions in the United States that consist of at least a medical
school and an owned or closely affiliated clinical facility in which faculty instruct physicians-in-



                                                E-l             OEI-Ol-97-00193   IRRS: A Time For Reform
                                                                                    APPENDIX E 

training. These centers classically conduct teaching, patient care and, in many cases, research.”
(David Blumenthal, Eric G. Campbell, Joel S. Weissman, “The Social Missions of Academic
Health Centers,” New England Journal of Medicine, Vol. 337,20 November 1997, No. 2 1, pp.
 1550-53.)

8. These IRBs are overseeing research at institutions receiving over 1.4 billion dollars of Public
Health Service (PHS) awards. As of March 1998, these institutions received over 27 percent of
the PHS dollars awarded extramurally for human-subject research.

9. These six institutions alone account for over half a billion dollars of Public Health Service
(PHS) awards. As of March 1998, these institutions received over 11 percent of the total PHS
dollars awarded extramurally for human-subject research.

10. Charles Mar-wick, “Institutional Review Boards Under Stress: Will they Explode or
Change?” Journal of the American Medical Association, Vol. 276, (27 November, 1996), No. 20,
pp. 1623-1626.

11. Charles MacKay, NIH Office of Policy for Extramural Research Administration, Letter to
Reports Clearance Officer, PHS, Request for Office of Management and Budget (OMB) Review
and Approval for the study “Evaluation of NIH Implementation of Section 491 of the Public
Health Service Act, Mandating a Program of Protection for Research Subjects”, Concept
Clearance 9025-0404, March 10, 1995. See also Harold Edgar and David J. Rothman, “The IRB
and Beyond: Future Challenges to the Ethics of Human Experimentation,” The Milbank
Quarterly, Vol. 73 (1995) No.4, pp. 489-506.

12. This according to the comments of Dr. Jim Childress, meeting transcript of the National
Bioethics Advisory Commission, 9 January 1997, (Eberlin Reporting Service: Silver Spring,
MD), p. 20.

While this phenomenon was true for drug studies, the situation was’reversed for medical device
studies. The intraocular lenses studies involved thousands of subjects. Most of the studies were
conducted at small community hospitals.

13. Comments of Dr. Jim Childress, meeting transcript of the National Bioethics Advisory
Commission, 9 January 1997, (Eberlin Reporting Service: Silver Spring, MD), p. 21.

14. Between 1974 and 1975, IRBs reviewed an average of 43 proposals per annum. (Institutional
Review Boards: Report and Recommendation of the National Commission for the Protection of
Human Subjects of Biomedical and Behavioral Research, 43 Federal Register, 10 November
1978, p. 56186.)

15. Barbara Mishkin, “Ethics, Law and Public Policy”, Professional Ethics Report (a publication
of the American Association for the Advancement of Science), Vol. 7, (Spring 1994), No. 2,
pp. 4-6.




                                               E-2             OEI-01-97-00193   IRBS: A Time For Reform
                                                                                 APPENDIX              E

16. U.S. General Accounting Office, Scientljic Research: Continued Vigilance Critical to
Protecting Human Subjects, GAOIHEHS-96-72, March 1996, p. 17.

17. The FDA reports, however, that it is in the process of revising its policies on disclosure of
such information.

18. We do not claim that this practice is widespread, but IRB representatives we spoke with did
identify situations where such information was not conveyed. These representatives emphasized
a certain vulnerability they felt about not being sufficiently informed about any prior IRB
reviews. Some of the independent IRB officials we spoke with were particularly concerned
about this practice.

The FDA cites 2 1 C.F.R., sec. 8 12.150(b) when this situation occurs: “A sponsor shall upon
request by a reviewing IRB or FDA, provide accurate complete, and current information about
any aspect of the investigation.” We believe, however, that the rules regarding notification
should be made more explicit.

 19. The FDA and OPRR also offer frequent interpretations in more informal ways: over the 

telephone, by electronic mail, fax, or in person. Many IRB officials we spoke with stressed that 

these clarifications were helpful to them. 


20. 	 Charles Marwick, “Institutional Review Boards Under Stress: Will They Explode or 

Change?” Journal of the American Medical Association, Vol. 276, (27 November 1996), No. 20, 

pp. 1623-1626. 


2 1. Contract Research Organizations manage clinical trials for drug and device manufacturers. 


22. For more information about the independent, for-profit IRBs, see our companion report 

Department of Health and Human Services, Office of Inspector General, Institutional Review 

Boards: The Emergence of Independent Boards (OEI-0 l-97-00 192) June 1998. 


23. Gregory J. Hayes, Steven C. Hayes, and Thane Dykstra, “A Survey of University 

Institutional Review Boards: Characteristics, Policies, and Procedures”, IRB, Vol. 17, (May-June 

1995), No. 3, pp. 1-6. 


24. The National Service Research Award Act of 1974 established the assurance as the primary 

mechanism by which the Department was to oversee research involving human subjects. 

(National Service Research Award Act of 1974, Public L. No. 93-348, sec. 474, 88 Stat. 342.) 


25. We use NIH and FDA as the two focal points because they are parallel constituent agencies 

of HHS. We add OPRR to the NIH side because in the IRB community, OPRR, a component of 

NIH, is typically viewed as the focal point for IRB oversight. 


26. Department of Health and Human Services, Office of Inspector General, Institutional Review 

Boards: Promising Approaches (OEI-01-97-0019 1) June 1998. 




                                               E-3             OEI-01-97-00193   IRBS: A Time For Reform
                                                                            APPENDIX                   E

27. HCFA Press Office, “New Results-Oriented Medicare Rules Proposed For Hospitals,”
December 19, 1997. Available on the world wide web at www.dhhs.gov.

28. The suggested revisions to the IRB expedited review list move in the direction we call for
here. (Federal Register, Vol. 62, No. 217, 10 November 10 1997, p. 60604.)

29. Advisory Committee on Human Radiation Experiments, Final Report, (Washington DC:
U.S. Government Printing Office, 1995), Chapter 18, Recommendation 13( 1).

30. Ruth Ellen Bulger, Elizabeth Meyer Bobby, and Harvey V. Fineberg, Editors, Society’s
Choices: Social and Ethical Decision Making in Biomedicine, (National Academy Press:
Washington, DC, 1995) p. 182.

3 1. In reviewing our reports, the group Public Citizen suggested that the following types of
evaluations would provide useful information about IRBs. While these suggestions were not
directed per se to NIWOPRR or FDA, we felt that they might help to stimulate discussion. The
suggestions include: (1) assessing the differences between IRBs based on a review of a
standardized protocol; (2) collecting data on differences between IRBs in rejection rates or rates
of requiring serious modifications in protocols; (3) analyses of close votes at IRBs to see if and
why those protocols got approved; and (4) retrospective analyses of IRB meetings which
approved trials now considered unethical.

32. These concerned serious matters such as the implantation of a device in three times the
number of human subjects specified in the IRB-approved research protocol, the initiation of a
research effort without changes that the IRB called for in the informed consent document, and the
continuation of a research project for six weeks beyond when the IRE3had suspended it
Department of Health and Human Services, Office of Inspector General, Investigational Devices:
Four Case Studies (OEI-05-94-00 loo), April 1995.

33. Comments of Dr. Jim Childress, meeting transcript of the National Bioethics Advisory
Commission, January 9, 1997, (Eberlin Reporting Service: Silver Spring, MD), p. 20.

34. At some large research institutions, multi-site trials now account for about one-half of all
active research protocols.

35. There is one regulation which requires the establishment of an independent data monitoring
committee. The FDA regulation that provides for an exception from the informed consent
requirements in certain emergency research (21 C.F.R., sec. 50.24) requires that a study
conducted under the exception have established an independent data safety monitoring board to
review data during the study in order to exercise oversight of the study.

36. One large academic health center we visited reported that it has requested and regularly
receives feedback from DSMBs. But this is contrary to the experience of other IRBs we had
contact with.




                                               E-4             OEI-01-97-00193   IRBS: A Time For Reform
                                                                                    APPENDIX E 

37. A cooperative group is a formal, free-standing government-sponsored entity responsible for
conducting multi-site trials. There are, for example, 11 such groups associated with the National
Cancer Institute (NCI). According to Federal requirements, NC1 cooperative groups are required
to monitor their research sites once every 36 months.

38. Periodically, when the cooperative group believes that its monitoring has identified
information that may be pertinent to the IRB, it will inform OPRR, which, in turn, will inform
the IRB. In addition, the IRBs sometimes will obtain information from the on-site principal
investigators.

39. The FDA cites 21 C.F.R., sec. 812.50(b) when this situation occurs: “A sponsor shall upon
request by a reviewing IRB or FDA, provide accurate complete, and current information about
any aspect of the investigation.” We believe, however, that the rules regarding notification
should be made more explicit.

40. 	 The National commission that developed the current system of human protections in the
 197Os, envisioned a more proactive role for IRBs. In its report, it noted that IRBs may interview
human subjects about their research experience or require that investigators provide subjects with
a form through which they may report to the IRB their research experiences. It cautioned about
observing the consent process, but noted that “certain research will warrant observation to assure
the protection of subjects and in such cases IRBs have an obligation to take suitable measures.”
It further noted that the documentation of informed consent should not be confused with the
substance of informed consent and that in certain cases the IRB may well require that a neutral
party be present to assist a potential human subject considering participation in a research effort.
(Institutional Review Boards: Report and Recommendations of the National Commission for the
Protection of Human Subjects of Biomedical and Behavioral Research, 43 Federal Register, 10
November 1978, p. 56174.)

The IRB regulations, which were adopted in 198 1, provide IRBs with the authority to “observe or
have a third party observe the consent process and the research. (45 C.F.R., sec. 46.109(e) and
21 C.F.R., sec. 56.109(e))

41. 	 Some cancer centers and clinical research centers are particularly active in auditing
investigators and assuring that protocols are being conducted as approved. Many IRBs do
attempt from time to time to visit research sites to obtain first-hand knowledge about research
practices. But, certainly, the workload pressures and other barriers we noted in our report on
continuing review significantly limit the frequency and effectiveness of such efforts.

42. Remarks by the President in Apology for the Study Done in Tuskegee, White House Press
Release, May 16, 1997.

43. 	 See Alicia K. Dustira, “The Federal Role in Influencing Research Ethics Education and
Standards in Science,” Professional Ethics, Vo1.5, Nos. 1 & 2, pp. 143-4; and Office of Research
Integrity, “NIH Strengthens Responsible Conduct of Research Requirement in Training Grant
Applications,” Office of Research Integrity Newsletter, Vol.1, No.2, April 1993, pp.1 and 8.


                                               E-5             OEI-01-97-00193   IRBS: A Time For Reform
                                                                               APPENDIX E 

44. The Commission on Research Integrity. Integrity and Misconduct in Research, (Washington,
DC: U.S. Government Printing Office, November 1995.)

45. In the “Statement of Investigator” (FDA Form 1572), the investigator is asked to make a
number of attestations (or as the form states, “commitments”). These include the following:
        1. “I agree to inform any patients or any persons used as controls, that the drugs are being
used for investigational purposes and I will ensure that the requirements relating to obtaining
informed consent in 21 C.F.R., sec. 50 and institutional review board (IRB) review and approval
in 21 C.F.R., sec. 56 are met.”
        2. “I will ensure that an IRB that complies with the requirements of 21 C.F.R., sec. 56
will be responsible for the initial and continuing review and approval of the clinical
investigation. I also agree to promptly report to the IRB all changes in the research activity and
all unanticipated problems involving risks to human subjects or others. Additionally, I will not
make any changes in the research without IRB approval, except where necessary to eliminate
apparent immediate hazards to human subjects.”

46. For example, the NIH has developed a computer-based tutorial about human-subject 

protections. It is available to the public and can be downloaded from the NIH web site. 


47. 	 Harold Edgar and David J. Rothman, “The Institutional Review Board and Beyond: Future 

Challenges to the Ethics of Human Experimentation,” The Milbank Quarterly, Vol. 73, 1995, 

No. 4, pp. 489-506. 


48. In that statement, the President said: “We commit to increase our community involvement so 

that we may begin restoring lost trust. The study at Tuskegee served to sow distrust of our 

medial institutions, especially where research is involved.” (Remarks by the President in 

Apology for the Study Done in Tuskegee, White House Press Release, May 16, 1997.) 


49. Institutional Review Boards: Report and Recommendation of the National Commission for 

the Protection of Human Subjects of Biomedical and Behavioral Research, 43 Fed. Reg., 10 

November 1978, p. 56178. 


50. At present the HHS regulations for IRBs address this issue by calling for research 

institutions engaged in federally funded research to assure that “provisions are made for meeting 

space and sufficient staff to support the IRB’s review and record keeping duties.” 

(45 C.F.R., sec. 46.103(2)) 


5 1. In such cases, OPRR has been quite explicit in informing an IRB of its lack of adequate staff 

support and in calling for an increased commitment of staff and other resources. It has also 

called for the parent institutions to give greater recognition to IRB members for the critical 

services they provide. 


52. Such a reorientation would be in accord with the directive set forth in the House 

Appropriations Committee report on the 1998 Balanced Budget Act to lessen the regulatory 

burden associated with extramural scientific research. 




                                               E-6             OEI-01-97-00193   IRBS: A Time For Reform
                                                                                     APPENDIX E 

 53. This parallels a recommendation called for by a Presidential advisory commission 15 years
 ago: “A broad educational and monitoring program covering the protection of human subjects
 and designed to reach investigators, IRB members, research administrators should be conducted.
 Among the various activities included in the program should be site visits of research institutions
.using experienced IRB members and staff as site visitors.” (President’s Commission for the
 Study of Ethical Problems in Medicine and Biomedical and Behavioral Research, Implementing
 Human Research Regulations: Second Biennial Report in the Adequacy and Uniformity of
 Federal Rules and Policies, and of their Implementation, for the Protection of Human Subjects,
 Washington, DC: U.S. Government Printing Office, 1983, pp. 135-137.)




                                               E-7            OEI-01-97-00193   IRBS: A Time For Reform
